I
                                      CLOSEOUT FOR M93080046
        In August 1993 OIG was informed by the university1that it was conducting an investigation
        into allegations of misconduct in science against the s u b j e ~ t .At
                                                                             ~ the conclusion of the
        University's investigation, OIG began its own investigation. OIG's investigation report and
        NSF's Acting Deputy Director's 9 April 1999 letter describing his determination constitute
        the closeout for this case.




           he-
    '                   , an Associate Professor of w   i   n thed-hr            the University.


                                               Page 1 of 1                        M93-46
                                 NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230



                                                   April 9 , 1999

   OFFICE OF THE
  D E P W DIRECTOR


   -D
    r
    Institute o f    \   !   J
    University of-


   VIA CERTIFIED MAIL - RETURN RECEIPT REOUESTED

   Re: Notice of Misconduct in Science Determination

   Dear Dr.-

   The National Science Foundation's (NSF) Office of Inspector General (OIG) issued an
   investigative report in which it concluded that you falsified an NSF proposal by
   misrepresenting your research capabilities and the status of your research. A copy of the
   final investigative report is enclosed.

   Scientific Misconduct and Proposed Sanctions

    Under NSF's misconduct in science and engineering regulations, "misconduct" is defined
   to include "fabrication, falsification, plagiarism, or other serious deviation from accepted
   practices in proposing, carrying out or reporting results fiom activities funded by NSF."
   45 CFR 9689.1 (a). The Foundation's administrative record indicates that you falsified an
   NSF proposal submitted in 1993 by misrepresenting your research capabilities and the
   status of your research during the term of a previous award. Your misrepresentation of
   your research capabilities and the status of your research constitutes falsification and is a
   serious deviation fiom accepted practices within the scientific community. We,
   therefore, conclude that you committed misconduct in science.

  In deciding what sanction is appropriate when misconduct is found, NSF must consider
  the seriousness of the misconduct; whether it was deliberate or careless; whether it was
  an isolated event or part of a pattern; and whether the misconduct affects only certain
  funding requests or has implications for any application for funding involving the subject
  of the misconduct finding. 45 CFR §689.2(b).

  According to the Investigative Report, in
  impression that you were able to examine
e c h n i q u e s - a procedure c
  program officer and reviewers of your proposal relied on your misrepresentations in
  awarding you the substantial long-term grant you received in 1994.
 The case file indicates that you were furnished with a copy of the draft Investigative
 Report, and you provided a written response on May 29, 1997. In your response, you
 state that you never intended to mislead readers of your proposal even though you
 concede that your proposal could have been misinterpreted. After a full review, I do not
 believe the record supports your position. Although your response downplays the
 distinction between u            s i     n     h      i     n your experiments, the
 record shows that your reported ability t                                o a critical aspect
 of your research and that you would not have been awarded the level of support you
 received in its absence. You clearly had the incentive to misrepresent your laboratory's
 ability to perform the i-o' cedure              on d                this undermines your
 explanation that the statements were unintentional or careless.

 I therefore take the following action:

     If you submit any research proposal or reports to the National Science Foundation or
    report on the results of NSF-supported research within two years fiom the date of this
    letter, you must submit to NSF's OIG a copy of the proposal or report, along with a
    separate written certification. The certification shall state that: (a) you recently
    reviewed NSF's misconduct in science regulations and to the best of your knowledge,
    the document is fiee of any such misconduct; (b) to the best of your knowledge, the
    proposal or report accurately reflects the status and results of your research; and (c) to
    the best of your knowledge, all statements in the proposal or report as to research
    resuIts and the capabiIities of your laboratory are backed by appropriate
    documentation. The certification should be sent to the Associate Inspector General
    for Scientific Integrity, 4201 Wilson Boulevard, Arlington, Virginia, 22230 at the
    same time that you submit the research proposal or report to NSF or report the results
    of NSF-fimded research.

    In addition, during this two year period, if you submit any proposal or report to NSF,
    or report on the results of NSF-hnded research, your Department Chairperson or
    Dean must also submit an assurance to the OIG that to the best of his or her
    knowledge; (a) your research proposal or report does not contain any falsification or
    fabrication, (b) the document accurately represents the status or results of your
    research, and (c) any statements in your proposal or report as to research results or the
    capabilities of your laboratory are backed by appropriate documentation.

Procedures Governing Scientific Misconduct Allegations

Under our regulations, you have 30 days after receipt of this letter to submit an appeal of
this decision, in writing, to the Director of the Foundation. 45 CFR §689.9(a). Any
appeal should be addressed to the Director at the National Science Foundation, 4201
Wilson Boulevard, Arlington, Virginia 22230. For your information, we are attaching a
Paae 3


copy of the Foundation's misconduct in science regulations. If you have any questions
about the foregoing, please call Lawrence Rudolph, General Counsel, at (703)306-1060.


                                       Sincerely,




                                    Acting Deputy Director



Enclosures (2)
Investigative Report
Misconduct in Science Regulations
                        Confidential




     Office of Inspector General
              Investigation Report

           OIG Case M93080046

                      6 October 1997

This document is loaned to you FOR OFFICLAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It
m a y be disclosed outside of NSF only by the Inspector General, pursuant to
the Freedom of Information and Privacy Acts, 5 U.S.C. § § 552,552a.
                                                 TABLE OF CONTENTS

SUMMARY.............................................................................................................................1

INTRODUCTION                    .................................................................................................................2
      NSF'S DEFINITION OF MISCONDUCT IN SCIENCE..................................................2

     STANDARDS APPLICABLE TO CONTENTS OF
     NSF PROPOSALS AND PROGRESS REPORTS ........................................................3

      1 . Proposals ......................................................................................................................6

     2. Award Progress..........................................................................................................5

     .PROCEDURAL.BACKGROUND.................................................................................... 6

     THE FIELD OF RESEARCH .......................................................................................8
THE CONDUCT AT ISSUE.....................................................................................................9

     Overview............................................................................................................................. 9

     I. . THE PRESENTATION OF INFORMATION ABOUT THE ABILITY
          TO PERFORM                       ...                                           i
                                                                                         '

          WAS KNOWINGLY MISLEADING ................................................................1                                           1

          A. The Statements....................................................................................................1 1

          B. How the Statements were False and Misleading ................................................12

     . C. The Subject's State of Mind .............................................................................16
    I1. THE DESCRIPTION OF THE ABILITY TO PRODUCE
       -                 WAS KNOWINGLY MISLEADING ...........................18

          A. The Statement ..................................................................................................... 18
         B. How the Statement was False and Misleading .......................;........................... 18
         C. The Subject's State of Mind ................................................................................ 20
      I11. EXPERIMENTAL RESULTS WERE RECKLESSLY MISSTATED IN
           TWO INSTANCES .................................................................................................. 22

           A. The Statements.................................................................................................... 22

           B. How the Statements were False and Misleading ................................................ 22
           C. Nature of the Alleged Misconduct......................................................................23
           D. The Subject's State of Mind ................................................................................26

      IV . DESCRIPTIONS OF PROGRESS ON AIM 3 OF THE 1990
           PROPOSAL WERE KNOWINGLY MISLEADING .......................................... 27

           A . Background ..........................................................................................................27

                 1 . Background to the 1990 Award ....................................................................27

                 2. Aim 3 of the 1990 Award..............................................................................28

           B. The Statements....................................................................................................29

                 1 . 1991 Statement of Progress on Aim 3...........................................................29

                2. 1992 Statement of Progress on Aim 3 ...........................................................29

                3. Description of Results from Prior NSF Support in the Original
                   and Revised 1993 Renewal Proposals.........................................................3 0

          C. How the Statements were False and Misleading ................................................31
                1 . The 1991 Progress Report .............................................................................32

                2. The 1992 Progress Report..............................................................................33

               3. The Description of Results from Prior NSF Support in the
                  Original and Revised 1993 Renewal Proposals ............................................ 33
         D. The Subject's State of Mind ...........................................................................3 5

               1 . Motive ........................................................................................................... 3 5

               2. Intent ............................................................................................................
                                                                                                                                   -37
OIG ANALYSIS: MISCONDUCT IN SCIENCE............................................................38
OIG's RECOMMENDED DISPOSITION .............................................i..........................40

THE SUBJECT'S COMMENTS ON THE DRAFT INVESTIGATION REPORT ..........42
                                             Appendices

Appendix A:     .....                                   ....
                                                                      ......................................... -44
Appendix B: The Subject as a Mentor for the Next Generation of Scientists ..................48




                                                iii
         REPORT OF AN INVESTIGATION INTO ALLEGATIONS OF
                     MISCONDUCT IN SCIENCE


                                          SUMMARY

         The Office of Inspector General (OIG) at the National Science Foundation (NSF) has
 concluded that ~-~
                  r.hte                      subject), a tenured Associate Professor of-
 in the Institute o           a        t the University of e               University) provided
 materially misleading  - and incomplete information that rendered key aspects of proposals and
 progress reports he submitted R ON SF hdamentally false. OIG recommends that NSF find
 that the subject committed misconduct in science and take the following actions as a final
 disposition in this case:

 1. Send the subject a letter of reprimand informing him that he was found to have
    committed misconduct in science.

 2. Require, for a period of 3 years from the final disposition of this case, or for the term of
    his next award, whichever is longer, that each of the subject's submissions to NSF
    (including annual progress reports, requests for supplemental h d i n g , and proposals)
    include, as part of the submission, a certification by the subject that he has reviewed
    NSF's misconduct in science regulation, and that the submission is free of misconduct.

3. Ensure, for the same period, that each of the subject's pending or future submissions to
   NSF include, as part of the submission, a signed assurance from a University official who
   is qualified to understand the laboratory's supporting research data and documentation
   that the official has reviewed those records and that all portions of the submission that
   rely on those records are accurate and complete.

4. Require, for the same period, that the subject send copies of the University official's
   assurances and the subject's certifications to the Assistant Inspector General for Oversight
   in NSF's Office of Inspector General, .forretention in that,Officetsconfidential file on this
   matter.

5. Reduce, during the same period, the annual increment for any award to the subject to
   '$65,000 annually or to anmnount commensurate-with the program officer's evaluation of
   the subject's actual research capabilities.

6. Limit, during the same period, the term of any award to the subject to a maximum of 2
   years or for a duration commensurate with the program officer's evaluation of the
   subject's actual research capabilities.
           7. Consider, for the same period, requesting that assurances be submitted by the subject with
              his requests for hnds from NSF's REU program, such as assurances from a University
              official who is qualified to (understand experiment and data recording practices that the
              recording practices the subject imparts to his students and the subject's practice for
              reviewing records in his laboratory comply with acceptable scientific norms.

                 We believe that if NSF takes the recommended actions, NSF's interests will be
          adequately protected. However, the subject currently has h d i n g from the Public Health
          Service and action short of debarment will not ensure that the interests of other federal
          agencies are protected. We recommend that NSF consider requiring that certifications and
- -      .assurances similar to those described above be included with the subject's submissions to
-.
          other federal agencies and, if it concludes that such steps are impracticable or will not
  . -..: sufficiently protect the federal government's interest, that it debar the subject for 3 years.

                                                   INTRODUCTION

                              NSF'S DEFINITION OF MISCONDUCT IN SCIENCE

                 - NSF. defines misconduct  in science in relevant part as "[flabrication, falsification,
        plagiarism, or other serious deviation from accepted practices in proposing, carrying out, or
        reporting results from activities funded by NSF." 45 C.F.R.5 689.1 (a)(l).' OIG understands
        this regulation to give three examples of, and a general standard-the "other serious
        deviation from accepted practices" clause-that defines, misconduct in science. OIG views
        the "other serious deviation clause" as forming the legal basis for a finding of misconduct in
      . science in all cases, including cases categorized as fabrication, falsification, or plagiari~rn.~
        OIG further understands that an act cannot be a "serious deviation!! from accepted practices
        so as to constitute misconduct in science.unless the act is committed with a culpable state of
        mind.3

               In a misconduct proceeding, it is NSF's burden to show both elements-i.e. that an act
        seriously deviates from accepted practices and that the subject .acted with,a culpable state of
        mind-by a preponderance of the evidence. 45 C.F.R.5 689.2(d). .. Because state of mind
      :.cannot .be' observed, NSF must generally .infer knowledge or intent -from surrounding
.       circumstances. Like the courts, NSF may infer that a person intends the natural and probable
       '   . NSFs defmition of misconduct in science also 'includes "[rletaliation o f any. kind against a person who
       reported or provided information about suspected or alleged misconduct and who has not acted in bad faith." 45
       C.F.R. § 689.2(a)(2). That portion of the defmition is not implicated in thiscase.

           For a discussion of OIG's interpretation o f the misconduct in science regulation, see our Semiannual Report to
      the Congress Number 13 at 27.

             For a discussion of OIG's interpretation o f the level of culpability necessary to sustain a fmding of misconduct,
      see our Semiannual Report to the Congress Number 9 at 36.
           consequences of his or her acts, and may appropriately consider the consistency and
           reasonableness of a person's position, as well as his or her interest in the outcome of the
           proceeding, in making determinations of credibility and intent.

                  STANDARDS APPLICABLE TO CONTENTS OF NSF PROPOSALS AND
                                    PROGRESS REPORTS

                   Before considering whether a subject has seriously deviated from accepted practices
           in the scientific community in proposing, carrying out, or reporting results from activities
                                                                                                                1I
           funded by NSF and, therefore, whether he committed misconduct in science under NSF's                 I
- .
           definition, it is important to be aware of the requirements applicable to the preparation of
           NSF proposals and progress reports. We describe below the requirements articulated by NSF
           for these submissions. Where helpful, we also describe the evolution of those requirenients.

                   1.       Proposals

                  NSF makes funding determinations under the National Science Foundation Act,
           42 U.S.C. $ 1861, et seq., based on the assessment of proposals by the cognizant NSF staff,
           assisted by merit reviewers. Accordingly, NSF has consistently required that applicants
          provide sufficient information-including accurate descriptions of supporting data, analyses,
          and methods, and of their progress under prior NSF awards-to permit proposals to be fairly            I


          and objectively assessed relative to the state of the field, current NSF awards, and other            1




          proposals with which they compete. E.g., Grants for Scientz9c Research, NSF76-38 at 1-2.
          For instance, NSF stated as early as 1955 that proposals should include "the design of
          experiments to be undertaken, if any, and the procedure to be followed should be outlined."
          Grants for Scientgc Research (April 1955) at 3. Similarly, the direction that proposals
          include "an adequate description of experimental methods and procedures," NSF92-89 at 4,
          was adopted in 1973. NSF73-12 at 8.

                 The October 1992 version of NSF's Application Guide, entitled Grants for Research
          and Education in Science and Engineering (GRESE), NSF92-89, .was in.force in 1993, when
      -   the subject submitted the renewal proposals-evaluated in this .report. :.Its directives, which
          were "mandatory unless superseded," id at 1 (emphasis in original), required Principal
          Investigators (PIS) to certify that the statements in a proposal, excluding scientific hypotheses
          and scientific opinions, were "true andcomplete, to the best of their knowledge . . . ." Id. at 2
          (emphasis added).4 The GRESE stated that

                 The main body of the proposal should be a clear statement of the work to be
                 undertaken and should include: objectives for the period of the proposed work
                 and expected significance; relation to longer-term goals of the investigator's

              The subject so certified in the renewal proposals discussed in this report. Exhs. 5 and 8 at 2.
           project; and relation to the present state of knowledge in the field, to work in
           progress by the investigator under other support, and to work in progress
           elsewhere. The statement should outline the general plan of work, including
           the broad design of activities to be undertaken, an adequate description of
           experimental methods andprocedures. . . .

    Id. at 4 (emphasis added). The GRESE required that proposals

           present the: (1) objectives and scientific or educational significance of the
           proposed work; ( 2 ) suitability of the methoak to be employed;
           (3) qualzjications of the investigator and the grantee organization; ( 4 ) effect of
           the activity on the infrastructure of science, engineering and education, in these
           areas; and (5) amount of hdingxequired. It shouldpresent the merits of the
           proposed project clearly and should. be prepared with the care and
           thoroughness of a paper submitted.for dpublication. Suficient information
           should be provided that reviewers will be able to evaluate the proposal in
           accordance with the four merit review criteria established by the National
           Science Board (see p. 1 0).

    Id at 1 (emphasis added).'

         The first of the four NSF Board review criteria to which the GRESE referred was
 research performance competence, which "relates to the capability of the investigator(s), the
 technical soundness of the proposed approach, and the adequacy of the institutional
 resources. available." N S F ~ ~ - 8at9 10 (emphasis added). Consistent with NSF's prior
 statements to the                 the GRESE described this criterion as "essential to the
 evhluation of the . quality of every proposal," and stated that it encompassed "the
.investigator's record ofpast research accomplishments. . . ." Id. (emphasis added).

        The second NSF Board review criterion to which the GRESE referred was the
 "intrinsic merit of the research." Id. (emphasis added). The3GRESEexplained that this

       .NSF has consistently advised the.cornmunity of applicants that these are the essential elements of a research
proposal. Much of the quoted text flows verbatim fiom NSFs 1973 Grantsfor Scientific Research. NSF73-12 at 2.
S e e also,'NSF83-57 (Oct. 1989) at 1-2; NSF90-77 at 1. Effective October 1997, NSF will implement review criteria
revised by the National Science Board in March 1997. Those criteria continue to stress considerations about the
quality and feasibility of the proposed research and the capabilities of the proposer.
6
     As early as 1951, NSF stated that the scientific merit of the research and the competence of the investigator
were considered important parts of the review process. See Grantsfor Scientific Research (Dec. 1951) at 1. Since
1976, NSF application guides have described the review criteria used to evaluate submissions. See NSF76-38 at 2 1.
NSF introduced the research performance competence criterion in 1981. NSF81-79 at 8. NSF thus has a long-
standing expectation that has been clearly articulated with increasing detail to the scientific community that
proposals submitted to it should contain sufficient accurate information for reviewers and NSF staff to objectively
evaluate the PI'S technical abilities and proposed research.
    criterion "is used to assess the likelihood that the research will lead to new discoveries or
    fundamental advances within its field of science . . . or have substantial impact on progress in
    that field . . . ." Id.

           NSF has required since-1960 that renewal proposals include a description of progress
    under NSF funding. E.g., NSF60-2 at 9; NSF63-27 at 15; NSF 76-38 at 17-18. NSF
    formalized this requirement when, in 1987, it required that proposals contain a separate
    section entitled "ResultsfiomPrior NSF Support." NSF83-57 (rev. 1/87) at 4.

            By 1992, when the subject submitted the renewal proposals at issue in this case, NSF1s
    GRESE stressed that reviewers would be asked to comment on the quality of prior NSF work,
    NSF92-89 at 4, and listed six requirements for this section including a summary of the
    completed work, publications acknowledging-the award(s) and "a description of the relation
    of the completed work to the proposed work.:' Id. Up to 5 pages (out of the 15 allotted to the
    project description) could be used in describing the results of prior NSF support.' Id.

           2.     Award Progress

         NSF has a fiduciary responsibility to monitor a PI'S progress under an award. Since
 PIS may encounter major problems or significant discoveries that affect the relevance of the
 original objectives, NSF provides PIS with the flexibility to change the objectives or scope of
 an award. However, major changes require prior written approval by NSF. E.g., NSF90-77
 at 13; NSF92-89 at 16.

        NSF consistently, and with increasing clarity, has told PIS that progress reports are
 required during the term of an award, and since 1978, has explicitly required that these
 reports include a discussion of problems encountered by the PI. NSF78-4 1 at 18.

       The GRESE in force when the subject submitted his 1991 progress report stated that
annual progress reports under continuing grants should "briefly summarize activity during
the past year, identify any significant scientific developments, :and describe any problems
encountered." NSF90-77 at 14 (emphasis added).

       The GRESE in force when the subject submitted his 1992 progress report repeated the
requirement for a description of problems encountered, NSF92-89 at 16, and added a second
statement that the report should include "an indication of any current problems or favorable
or unusual developments." Id. at 35 (emphasis added).

'     The page limit did not apply to the bibliography. NSF has consistently required a bibliography containing
"complete" citations, e.g., NSF92-89 at 6; NSF90-77 at 4; NSF83-57 (Oct. 1989) at 5, consistent with its
expectation of "strict adherence to the rules of proper scholarship and attribution, which are at the heart of the
research community, the communication of research results, and the competitive merit review system on the basis of
which NSF makes awards." NSF92-89 at 1; NSF90-77 at 1; NSF83-57 (Oct. 1989) at 2.
                                           PROCEDURAL BACKGROUND

                 The subiect was the urinciual investigator on a 1990 NSF award,-
         entitled '     -     (    1      9     9      0                award), in the (then)-
         P r o                  a r n (Program). The total award provided $                    : a grant of
         $          in research support over a 3-year period; Research Experiences for Undergraduates
         (REU) supplements totaling $         for three students; and a $         supplement to purchase
         a microscope.' The funding period ran o9r-0f                     -t1995.               This award
         was large for the Program, and totaled approximately $20,000 more per year than the average
         award.
-.
                  In January 1993, the subject submitted a renewal proposal to NSF (the original
          renewal proposal)? In March 1993, after reading the original renewal proposal, the subject's
          graduate student informed a University administrator that ,she believed it contained
          misrepresentations. The University formed . a committee of inquiry to address these
          allegations. On 2 April 1993, the subject withdrew the original renewal proposal from NSF
          consideration.

                Later in April 1993, the subject submitted a revised renewal proposal.'0 NSF awarded
         a 5-year continuing grant on the basis of that proposal on 6 April 1994 and provided
         $         in support the first year. For each of the remaining 4 years of this renewal award,                I
         NSF projected that it would provide more than $100,000 in support. Like the 1990 award,
         the renewal award totaled approximately $20,000 more per year than the average award in
         the Program. The renewal award is currently in its fourth year. To date, NSF has provided
         four REU supplements (totaling $            ) to provide support for undergraduate students
         working in the subject's laboratory under the renewal award.

             In August 1993, the University informed OIG that it had found there was substance to
     the allegations of misconduct in science based on the contents of the original renewal
     proposal, and that it was forming a committee to investigate the allegations. Consistent with
     NSF's position that awardee institutions bear primary responsibility for:prevention, detection,




                                           -
     and investigation of misconduct, 45 C.F.R. 8 689.3,. OIG ,deferred ,our :inquiry and any
     investigation until the efforts at the University were concluded.


     8
          The 1990 proposal is Exh. 1; the 199 1 progress report Exh. 2; the 1992 request for funding for equipment
     Exh. 3; and the 1992 progress report Exh. 4.
     9
          The original renewal proposal,                      entitled '                v                      T
     and sought $         for research support. It is Exh. 5.
     lo
           The rcvised renewal proposal, -also
     also sought $         for research support. It is Exh. 8.
                                                               entitled   ''V
                 In July 1994, the University provided us with its investigation report. It later
          supplemented that report with information we requested after reviewing the report. On the
          basis of its investigation, the University concluded that the subject had committed "scientific
          misconduct in research."' Exh. 14 at 7. The report and the University's letter of reprimand
          are Exhs. 14 and 16; relevant appendices to the University's report are Exhs. 5, 6, 8, 9, 10.
          Supplemental information provided by the University in response to our request is found in
          Exhs. 11, 19 and 20.12

              Following our receipt of the University investigation report, we conducted our own
      investigation.13 We concluded that the allegations raised before the University, and an
      additional series of acts that came to light in the course of our own and the University's
      investigation, constituted misconduct in science under NSF's regulation. We sent the subject
      a draft of our investigation report and all supporting exhibits. His written comments, which
      we have taken into account, are included at Exh. 32.

           We set forth below the evidence, drawn primarily from the subject's written
     submissions to NSF and the subject's statements to the University and to us,I4that compels

     " All fmdings by the committee of investigation were unanimous, based on evidence the committee found to be
 clear and convincbg. Exh. 14 at 2; Exh. 19 at 2. The University defmes misconduct as "fabrication, falsification,
 plagiarism, or other practices that seriously deviate from those that are commonly accepted within the scientific or
 scholarly community for proposing, conducting, or reporting research. It does not include honest error or honest
 differences in interpretations or judgments of data." University policy statement on Alleged Misconducf in
 Research. The University advised us that, in applying this defmition, it places "a lesser importance" on intent than
 does NSF and that its committee did not assess intent in making its fmdings of misconduct. Exh. 19 at 1-2; Exh. 20
 at 2.
     l2
      Both the subject's graduate student and the subject reviewed and commented on the University's draft
 investigation report. Their comments are Exhs. 12 and 13, respectively.
 13
      As part of our investigation, we visited the subject, and provided him with a copy of Exh. 11. We introduced
 ourselves, identified our professional positions and degrees, cf: Exh. .32 at 9, and provided the subject with the
 following advice, in writing, at the outset of our interview with hixp:

                The Ofice of Inspector General (OIG) is requesting information under the authority of the
               Inspector General Act of 1978, as amended, .as well as the National Science Foundation (NSF)
               regulations on misconduct in science and engineering . . . The information you supply may be
               used during the course of an inquiry or investigation concerning misconduct in science and
               engineering, as well as for the routine uses specified in NSF Systems Notice 53 (published at 55
               Federal Register 5308 (February 14, 1990)). OIG requests that you furnish information on a
               voluntary basis. You may, but are not required to, have a lawyer of your choice present at any
               meeting with OIG personnel. If you choose not to provide the requested information, OIG may
               reach conclusions concerning an allegation of misconduct without the benefit of your input.

The subject acknowledged by his signature on 19 March 1996 that he had "read and understood" this notice.
l4
     The subject provided us with four affidavits during our interviews with him. Exhs. 23-26. The subject also
rewrote parts of his 1993 proposal during the course of our investigation. Our letter describing the purpose for the
rewrite and the rewritten proposal (the 1996 revision) are Exhs. 27 and 28, respectively. In our judgment, the 1996
      our conclusions that he committed misconduct in science. Where relevant, we also cite the
      reasoning of the University's investigation report which reflects the mores of the scientific
      community at the subject's institution." We begin by describing the field of research in
      which the particular acts take place. We then describe the acts at issue, the accepted
      scientific practices that we believe were violated by those acts, and the evidence and our
      conclusions concerning the subject's state of mind. We then present our analysis of whether
      the acts should be deemed to be misconduct in science under NSF's regulation. Finally, we
      turn to the disposition we recommend to the agency. Where relevant to our discussion, we
      reference the allegations that the University addressed, the conclusions it reached, and the
      actions it took.

                                        THE FIELD OF RESEARCH

              The subject is a                 biologist-whohas .described himself as "the world's
      expert on               , period." Exh. 11. at 63. The+proposals here .at issue describe the
      subject's actual and proposed research - on                                      -.) This
      report largely focuses on the subject's descriptions of his research progress toward isolating
      and characterizing                                               &which was Specific Aim 3
      of his 1990 award and was also the work he proposed to do under Specific Aim 2, parts -(a)
      and (b) of his 1993 renewal proposals." Exh. 25 at 1,2; Exh. 1 at 19; Exhs. 5 and 8 at 16.

           In its t a g e -                  a       I      t-               !
                      It is known asgna-"                       its g    e     , once it has formed all
     its      structures but before it has T                 h               e      t structures in the
-d
 na-                            are distinctly different. Unlike the                  the i           s
             in a              h and is particularly resistant to                    techniques. E.g.,
    Exh. 6 at 2; Exh. 11 at 37.e -                             differentially responsive to           s                         ..
    or other         s. E.g., Exhs. 5 and 8 at 6-7.

                                                                                   - identified
            The subject's 1990 award and 1993 renewal proposals focussonindividually
) -                       t ain
                              h. ,          synthesize .and release :certain

                                                                                                                            4   .-
 revision did not alleviate the concerns raised by the subject's initial submissions. The program officer's review of
 the 1996 revision, which reinforced that judgment, is at Exh.29.

      The subject complains that the University did not give him access to testimony by witnesses in its                .
 investigation. Exh. 32, at 8. We cannot control the University's internal process.. We have ensured that the subject
 had full access to all information on which we rely in this Report.
 l6
                     s refer to the                        l.
 17
      We stress here, as throughout this report, that it is the subject's descriptions of his work and his research
 progress--not the research area or the validity of his results-with which we take issue.
                           , referred to in the subject's proposals as                   A         that alters its behavior in
             response to the presence of i        sat a r g e t . "

                           influence a variety of                    behaviors in different            at different
            stages in the                  l      cycle of 0 At the time the subject wrote his
            proposals, he claimed that, although -                        are the physiological target of




                 -
            c e              s are not; in vivo,19s t i m u l a t e an-d,                                    in the
    -    -ey            affect w u r i n g several different activities. In an artificial environment, in
            ~itro                    s can be made to respond to selected ,reparations.               Exh. 1 at 3,
            5; Exhs. 5 and 8 at 3,6-7; Exh. 25 at 1.

                       The subject's research prior to his receipt of support from NSF had led him to propose
                 that        influence                          in the i     m     p     v   i   a the
\                          ,\                                    ..     win tum,.alters the
                 (      concentration, and fluctuations +in this           concentration *influence
                          . Exh. 1 at 10. The subject sought to test this proposal by identifying and
                characterizing                    in the -Rind                          determining which are
                 modulated by         using -IJtechniques2'                           on
        .slcel!*-                          Exh. 1 at 13,21; Exhs. 5 and 8 at 16, 18.U

                                                      THE CONDUCT AT ISSUE

                                                              Overview

                We set forth below a brief overview of the subject's research difficulties. We
         highlight ways in which we believe the subject's presentation of his past and anticipated
         research in his 1993 proposals (as well as in progress reports) masked both his lack of
         progress and his laboratory's difficulty performing certain experiments in a way that rendered
         those submissions fundamentally false. This made NSF unable fairly and objectively to
         evaluate or monitor the research, and therefore directly, centrally, and.materially undermined
         NSF's ability to perform its mission.

         "
             "Physiological" means "chkcteristic of, or appropriate to, an organism's normal functioning." Merriam
         Webster's Collegiate Dictionary ( 1 0"' ed. 1993).
         '     "in vivo" means in the living organism. id
        20
               "in vitro" means outside the living body and in an artificial environment. Id




        "    The revised renewal proposal proposed to conduct these experiments o              n   a   s well as
        Exh. 8 at 18.
                 Aim 3 of the 1990 award proposed to identify           -dependent              currents
         in individually isolated                            or       1                    , using
         substitutions andlor pharmacological            to isolate the   +currents from other currents.
         Exh. 1 at 19, 21. This effort was one of three "co-equal" Aims identified in that proposal.
         Exh. 23; Exh. 1 at 12-13. The subject ran into serious difficulties, however, in conducting
         this research. His laboratory was never reliably able to perform this research because: (1) it
         was unable reliably to prepare the                    sllec4-                    necessary for
                            ; and (2) on those few occasions when it was successful in dissociating
                       rF e l l                 , it could not reliably               the       What it
         could do was           and.slle-\                               As noted above, however, the
         research interest in Aim 3 (1990) focused o n - t a r

                 The subject's laboratory accordingly made,little to no progress toward Aim 3 (1990),
         and the subject therefore included Aim 3 (1990) as Aim 2, .parts ;(a) and (b), of his 1993
         renewal proposals. The subject never noted in the renewal proposals,-however, that Aim 2,
         parts (a) and (b) (1993), was identical to Aim 3 (1990); and, more importantly, as set forth
    -
.       :below in greater detail, the subject never.disclosed, in his submissions to NSF, the difficulties
         he had had in initiating the research described in Aim 3 (1990), as required by NSF policies
         and procedures. In two instances the subject -stated that experiments had been performed
         when, in fact, they had not. In addition, the subject presented past work performed elsewhere
         without NSF support as progress made by his laboratory under the 1990 NSF award.

                        Specifically:

        I.              In his original renewal proposal, the subject reproduced a                   that, from
                        the legend and referential text, implied that the data were gathered using-e
                        when, in .fact, they were gathered u s i            . This action made it appear that
                        his laboratory had a greater capacity tosllec!-1                                      as
                        contemplated in Aim 3 (1990)lAim 2 (1993) than was in fact the case.

        11.           In his renewal proposals, the subject included. a misleading.description of his
                      laboratory's ability to dissociate                                 . This description
                    .-masked the .difficulty his. laboratory had . experienced ,dissociating such      in a
             .       reproducible way as required to conduct the research contemplated in Aim 3
                     (1990)lAim 2 (1993).

        111.            In the original renewal proposal, the subject claimed that his laboratory had shown
                        that two compounds,            w3
                                                    a n d r 4 could be used to control variables (
                                                    ) that had to be controlled for the proposed
        "        -the         abbreviation for -       o   c   k   s    the                                 .
                         is the abbreviation for\Jis                          used to block             .
                              experiments to be successful. These claims made it appear that his
                   laboratory had developed the techniques and experimental conditions necessary to
                   conduct meaningful experiments in order to secure useful results from
                             performed under Aim 3 (1990)lAim 2 (1993). His laboratory had made
                   neither showing.

         IV.       In progress reports under the 1990 award and in the 1993 renewal proposals, the
                   subject re-presented research that he had performed with a colleague in 1988 in that
                   colleague's laboratory and that he had cited as background support for Aim 3 (1990),
                   as having been performed by his laboratory under the 1990 award. These
                   presentations diverted attention from his laboratory's lack of progress on Aim 3
                   (1990).

                We set forth below the subject's statements, and our analysis of why and how they
         were fundamentally false and misleading, and of the subject's state of mind.

         I.        TFIE PRESENTATION OF INFORMATION ABOUT THE ABILITY TO
                   PERFORM                    ON                     WAS
                   KNOWINGLY MISLEADING^^

                   A.       The Statements

                  Figure 7 of the 1993 renewal proposals demonstrates the successful performance of
     the                        procedure s.ole-l               Exhs. 5 and 8 at 17.

                  The legend for Figure 7 in the original renewal proposal reads

                  Figure 7. Family of                            in! -q                 . Inset:
                                    of               during same experiment.

     Exh. 5 at 17. While the legend is technically correct in that a "                  " was used, the
    associated text makes it clear that the                    of interest is that of the .-
    Moreover, the text could not reasonably be interpreted to suggest that -                 were used.
    For example, the "Significance and Background" section of the original renewal proposal
    states that c       t at four different points in the             of          t h different target
            and                effects at each point, with the hindgut being the primary-argkt
    in t h e s t a g e "whereas the           is the principal target in          Id. at 6, 7 (emphasis
-   added). Nothing in either submission says that the -is                    a physiological target of
              The discussion is accompanied by a figure illustrating that the s                     the
    physiological target of          m
                                   in th-0th.            Id. at 7, Figure 1.

    25
              This was Allegation 1 in the University investigation.
 Aim 3 (1990) entitled "Mode of action of t h m o n the
 this action and states, "[wle have recently been able to
                                                             -
         Similarly, the section in the original renewal proposal on results from NSF support on
                                                                            describes a model for

 test this model." Id. at 10 (emphasis added). It then states that the experiments to test this
 model are discussed in Aim 2 of the renewal proposal. Id. The "Methods" discussion for
 Aim 2 states that experiments to support that Aim "will be conducted on
 isolated from "-                  id. at 18 (emphasis added). The text on Aim 2 elsewhere
                                                                                               to




 references Figure 7 as evidence of the subject's ability to "achieve a
 preparation suggest[ing] that the proposed experiments are feasible." Id. at 16.

        The revised renewal proposal was submitted after the graduate student told the
 University that she believed the subject's handling of this issue in the original renewal
 proposal was misleading. The subject's cover letter to the program officer and merit
 reviewers states that all changes from the original renewal ,proposal were highlighted.
 Exh. 7; accord Exh. 8 at 5 (chkges "shaded").

       ..There~ised~renewal   proposal contains no changes to the portions of the !'Significance

action on the   6
and Background" an "Results from Prior NSF Support" sections relevant to the
                                The relevant portion of the Methods section contains the
additional, highlighted, statement that "[wle will investigate these issues in 0
              both of which respond to the          and also added that experiments would be
performed on                        isolated from w h i c h was highlighted) as well as
                Id. at 16, 18 (citation omitted; emphasis added). The legend to Figure 7 has
also been modified to read (with additions here denoted like this)

       Figure 7. Family of                      in                                     .
       Inset:                      of     during same experiment.

Id. at 17 (emphasis added). The change to the legend was not highlighted in the revised
renewal proposal.




                                                                                    -
       B.     How the Statements were False and Misleading

        From the context in which Figure 7 is presented in the original renewal proposal, the
data in that Figure can betaken only as having been collectedd-o               not
     . The statements and Figure 7 therefore imply that the subject's laboratory could, and
expected to, perform the demanding l p r o c e d u r e on                             . This
was important because, in his proposals and papers, the subject had identified the
as the physiological target o f , Exh. 1 at 3; Exhs. 5 and 8 at 3, 6-7; Exh. 25 at 1, and it
was therefore experiments on the                        that were of central importance to a
discussion of significant scientific developments, or problems, in achieving Aim 3.
        In fact, as the subject concedes he knew, the experiments producing the data
 contained in Figure 7 were conducted on              Exh. 25 at 2; Exh. 11 at 76.

                                                                                                 -
                                                                                          -
        Moreover, the -procedure                     was far more difficult to perform on
                     than on                        and the subject was acutely aware that his
 laboratory had had little success in                                          Exh.- 32 at 2. The
 subject himself could not then do this procedure. Exh. 1 1 at 34-36. He told the committee of
 investigation that the graduate student's-racings         were messy, and that if she had showed
 him a good         tracing, he "probably would have taken her out to dinner." Id. at 81, 163.
 The laboratory's success rate in 1993 using the {                                            was
 "much higher with o                         m ( f i n a l ) c o m p a r e d to
      (>75% vs ca. 5%)." Exh. 28 at 18. See also Exh. 11 at 6 1. The subject, however, did
 not explain any of this in his renewal proposals.

        The University committee of investigation-unanimously found that the statements
 relevant to this allegation in the original renewal proposal were "simply misleading."
 Exh. 14 at 13. As the University Vice Provost said in reprimanding the subject, "inadequate
 labeling of Figure 7 in the original proposal in juxtaposition with text at pages 16 and 18 . . .
 misrepresented research upon which the proposal was founded, and it invited the reader to
 conclude that -had             been used in the experimentation." Exh. 16 at 1.

       The University reached a similar conclusion with respect to the revised renewal
proposaI. The committee of investigation found, also unanimously

          The revised proposal attempts to correct some of these statements but still does
          not explicitly state that the -has               not been successfully examined
         using m e c h n i q u e s . The single sentence [in the revised renewal
         proposal] stating that the m        i     l    l respond to-would         require
         significant expansion if the reader were to understand its implications. The
       si-                 not a physiological target for the -and            responds at
         significantly higher                  of the -

       ;   .. C]']f [the subject] had stated in the original proposal that the only successfbl
                        experiments had been performed on
       proposal as written would be significantly weakened. . .ht-.e

       However, nowhere in the revised proposal is the explicit statement made that a
                            preparation of              had not been accomplished.
       The direct statement would make clear what has and has not been done.

Exh. 14 at 12-13.
                 that

                 -


                                             -        was a "very poor second alternative" to  -
                         The subject has effectively conceded as much. The subject admitted to the University

                            . Exh. 11 at 98. He also admitted during our investigation that Figure 7 was from
                              but that the original renewal proposal does not state that fact, and that "program
                 officers and reviewers could not have interpreted this work to be porn I."

                 an expert that it came from                  ).
                                                                                                     Exh. 25 at 2
                 (emphasis added). See also Exh. 1 1 at 161-62 (there was nothing in Figure 7 that would tell


                         We concur. The original proposal is misleading in its presentation of facts that were                 1
                  fundamental to the fair and objective assessment of the subject's ability to conduct the
                  proposed research because the text states that the experiment will be performed on-
                 -                 and, in conjunction with Figure 7, implies that the subject's laboratory could
                . s~cessfull                                           . Although the subject withdrew the
                  original renewal proposal after the student made,her concerns public, that ;proposal had been
                                                                                        +


                  hlly certified and submitted to NSF for h d i n g .

                       - We agree with the University that the revised renewal proposal was also, although less
                 so, misleading. The revised renewal proposal remained misleading because it implied that
                .the - laboratory's ability tb perform experiments on     w               preparations were
                 equivalent and that information from either preparation had the same in vivo impli~ations.~~
                 Both implications were important to NSF review criteria, including research performance                       A


                 competence and (although somewhat less so) intrinsic merit; and both were false. See page                     I

                 12, above.




                   - -
                     The subject now claims there were four "quite valid reasons" to use
           to study the questions raised in Aim 2 of the revised renewal proposal. Exh. 32 at 2. First,
    e- . : he cites a:1985 paper-byi-r
        h   .

                                                               as demonstrating that the             response                 ..
           to a           s identical to that of the             . This paper does show that application of
           -factors                       to in vitro -reparations          or injection of these factors into
         c r e a s e                    . However, the authors caution: "the physiological role of
          in                      are uncertain. It is not possible to conclude that they act to regulate the
                    in vivo simply because they are                ) ( in (the -
,   . :+.-assay.:.. . .-.This-at least demonstrates the possibility-of.contro1-by.either or.both i          n       -   ..*




                omitted).
         vivo, although it does not show that it occurs n a t u r a l l ~ . " They
                                                                              ~ ~ added that they had "no
         evidence for a physiological role for either     factor in any t ~ t g e . " ~ ~

                Second, the subject cites two papers, including                 as      the basis for his
         conclusion that "the a                s likely to be [the] physiological target of the
         because th-ere           released into the        at least twice prior to                . . . ."




                -
         However, the simple release of these molecules in the                  does not mean that their
         target         is the    More importantly, this statement is inconsistent with the description
         of a c t i o n in his original and revised renewal proposals in which he states:
 - -
- -              ID also    stimulates the                             assisting in )
                 b e h a v i o r prior to                                ,! In t h e
                      perform a very different role; they .twice act as ( J
                                    ....
                It should be clear even from this brief summary that all four                ^^ are
            -   not identical. Each has its own distinctive set of characteristics that result in
                very different physiological andlor behavioral consequences. The type and
                time course of the four -effects          are dependent on many parameters
                including target              and              , method of transmission, and
                differential            of the         containing        . For example, target
                sensitivity is      -dependent: the              is the primary             m
                                                                                         target in




                                                                                                   -
                            and       stages where as the m        s the principal target in
                (Fig. 1).

        Exhs. 5 and 8 at 6-7. The figure identifies the w               a     s the only -target                   but
        identifies the    as the t a r g e t .

                Third, the subject states, "the fact that the -elicited         the same            and
                       responses on the         and              strongly implied that
        -contained        the same                and -that studying either -preparation would give the
         same answer in terms of                                           ." However, the subject's
         proposals to -NSFemphasized not. simply [whether           0     and              preparations
         could be shown to respond to m u t his interest in determining the physiological role of
       n-         t         e We agree that there can be valid reasons for studying a nonphysiological




         ' a r e released 4 times during the                    : once during               once a the onset o-
                   , and twice in t h e w i g . I)." Exh.5 at 6. Figure 1 of the renewal proposals graphically display
       these four     and the behavior each elicits on the target     . Exhs. 5 and 8 at 7.
                          target, especially if the physiological target proves, as in this case, to be refractory to study.
                          However, the rationale for this approach must be explained in a proposal if NSF is to                           ,
                          determine whether this approach is scientifically valid and merits funding.

                                 Fourth, the subject seeks to justify the switch to -preparations        because his
                                                                                                                                          ~
                          student was "unable to replicate her Fall 92 success at r e c o r d i n g in the winter of
                           1993 and was concentrating on the III)preparation as a means to finish her degree at the
                          time the revised proposal was submitted." Exh. 32 at 2. Although the student's inability to
                          conduct studies on the 0could justify changing the laboratory's experimental
                          approach, the subject's laboratory's actual capabilities and the intellectual basis for his
                          experimental approach should have been clearly stated.

                                  The matter before NSF is not whether the subject could have proposed to do a                                1
                          different research project or whether scientific support existed <for?that
                                                                                                   other project. Rather
                          it is whether the subject's presentation of informationin the ,original+renewalproposal or the
                          revised renewal proposal (written after he knew his student could not replicate her results)
.   .   .
            ,   .   .    seriously misrepresented.hisresearch~accornplishmentsand capabilities.


                                  C.



                          been conducting

                          was intentional.
                                              -
                                          The Subject's State of Mind

                                 The subject claims that he did not intend what he concedes was the natural effect of
                          his presentation in the original renewal proposal: falsely to imply that his laboratory had
                                                           experiments on-                 Exh. 25 at 2. We believe
                        . the evidence shows the contrary: that the concededly misleading nature of this presentation


                                 The evidence establishes-and the University unanimously found-that the subject
                          understood that the data in Figure 7 had been collected using ,                     and that the




                                                                                      -
                                      distinction was presented as critical to the proposal as written. See Exh. 14 at 9-
                          10; Exh. 1 at 3; Exhs. 5 and 8 at 3, 6-7; Exh. 25.at 1; Exh. ,29.at 3;31.footnote26 above. As
                          the University observed in reprimanding the subject, ?[h]aving .written and assembled the
            a
                        , proposal, [he]. knew .of the .possibility of this misinterpretation, and [he]<knew that [he] had                ,




                                                                                      -
                          no verifiable evidence to support that such research had been done." Exh. 16 at 1.

                                 The subject also had ample motive to mislead NSF on this issue. The subject was
                         convinced that if, in assessing his technical capabilities and his relevant research experience,
                         reviewers believed that he was unable to perform the                      technique, his request
                         for renewal h d i n g would be jeopardized

                             The program officer believes that the distinction between                      should have been more fully
                        discussed and the dificulties in using1-s             should have been noted. Id.
                 [Tlhis is-was very crucial, because I did not haxe the expertise, so I couldn't
                 cite a paper in my CV that said that we could do this. And [the reviewers]
                 would then in turn say to me, 'Well, prove that you can do it. I'm sorry, we're
                 not going to give you the money-unless you can prove you can do this we are
                 not going to give you the money.'

                 The reason I put that figure in was just for that.

          Exh. 11 at 159. See also id. at 77 ("I wanted to show the reviewers that we could do that, and
          that was the point of that figure. That's

               Because he had presented the distinction between a)s-                            critical to
      the significance of the work he proposed, the-subject knew- that his laboratory's ability to
      successfully pe&orm the

      also knew that (unlike
                                         n
      essential to the performance, as origina y described,        of A
                                                                      mi
                                                                       9
                                                            technique On.
                                                                        -
                                                                        3
                                                                        )
                                                                                                      was
                                                                                                        He
                                                      ) it was virtually impossible, at that time, for his
      laboratory to perform reportable                           on e l           . The subject admits as
      of the time he submitted the original renewal proposal, his laboratory had only an "infiequent
      ability . . . to y     e     l        l              . Exh. 32 at 1. He also concedes that, by the
      time he submined the revised renewal proposal, he knew his laboratory was "unable to
      replicate [its] Fall 92 success at-recordings."                 Id at 2.

               Yet, notwithstanding NSFfs requirement that such reports "describe any problems
       encountered," NSF90-77 at 14; NSF92-89 at 16, in two separate progress reports to NSF
       under the 1990 award, the subject had claimed, in sections entitled "Mode of action of the
      o          n the -,"         (emphasis added), that his laboratory was o            r                       m
     -individual           -ce           without disclosing the difficulties it was experiencing in
      applying such techniques to the -xh.               2 at 3; Exh. 4 at 2. Similarly, he had not
      availed himself of the opportunity to describe these problems as part of a change of scope in
      his award.33

     l2
             We note in this connection that, although the subject told the program officer and reviewers that changes from
--- - -- the previous submission had been highlighted or shaded, Exh. 8 at 5; Exh. 7; he failed to shade the addition of the
         word"I        to the legend of Figure 7. This meant that readers' attention would be drawn to the shaded changes
      - and they would be unaware that the subject had failed, in his withdrawn pro osal, accurately to label Figure 7 as
     data derived from              . Although the subject claims that the reason &was         not shaded was because he
     could not get this particular word to shade, Exh.26 at 1, he could have marked this chan e b hand. Moreover, it is
     consistent with the subject's presentation of his motivation that he omitted the word           fmm Figure 7 of the
 -   original renewal proposal and failed to shade that word in the revised renewal proposal because he believed that, if
     reviewers were to realize his laboratory's actual capabilities, they would have expressed serious criticism about its
     ability to conduct the proposed -xperiments                 on                 . Exh. 11 at 159.77.
     33
          See Grant General Conditions, GC-1 (10/88), Article 13 (proposed changes to the phenomenon under study or
     the objectives of a project should be communicated in writing to NSF). See also, NSF90-77 at 13 (major changes in
     objectives or scope should be communicated in writing); NSF92-89 at 16 (same).                           .
          11.
                --
                 THE DESCRIPTION OF THE ABILITY TO PRODUCE                                                        -
                                                                                                                      -
                            WAS KNOWINGLY MISLEADING^^

                 A.       The Statement

                We investigated the allegation that the method described in the original renewal
          proposal for dissociating                           that   is, for producing from
                                      that retain their         --did not work, as described in the
                               Exh. 5 at 18 (emphasis added).
-.
                 Page 18 of the original renewal proposal states, in pertinent part




                -
                Experiments will be performed on.
                        Afier dissection, whol-e
                saline containing 10X normal [
                in normal saline, e



      Id. at 18 (emphasis added).

                B.
                                            placed in a 0
                10 min. This procedure routinely produces
                                                                         isolated from
                                                            incubated for 5,min in -a
                                                     ]. Following trituration andseveral rinses
                                                              +saline and vortexed gently for 5-




                         How the Statement was False and Misleading
                                                                     at              retain their
                                                                                                         m




              An NSF proposal must contain sufficient information for the ~oundationand its
      reviewers to evaluate the technical soundness of the proposed approach, the subject's




                                                                     -
      capabilities, and the likelihood,that the research will have substantial impact on progress in a
      field or will lead to new discoveries. NSF92-89 at 10.




                            -
            The reason for isolating              as described in this portion of the renewal
     proposals was to use them in periments                      to-identify and assess
     dependent      +channels i                      .as -contemplated by Aim 2 (1993) and by
     Aim 3 (1990). Given thisepurpose,the quoted portion of the original renewal proposal would
     be understood by a reasonable reader to mean that the described procedure had reliabZy
     produced isolated                suitable for                experiments.)' See Exh. 14 at
     19. That was false.

     I4
            This was Allegation 4 in the University investigation.
     3s
           Although text under the caption "Interpretation of results and potential difficulties" qualifies the laboratory's
     ability to perform the                   work in certain circumstances (specifically, if it is unable to fmd a
     current influenced by         it nowhere qualifies the laboratory's stated ability to produce the         necessary to
     perform the experiments. Exh. 5 at 17- 18; see also Exh. 8 at 18.
                      At the time the subject wrote and submitted the original renewal proposal, the
               subject's laboratory had rarely, and certainly not routinely, been successfbl in isolating
              -els               suitable for".-                   Exh. 11 at 58-59, 81-82; Exh. 6 at 2. The
               subject's laboratory was able to isolate and c           e      l            s routinely. The
               dissociation protocol used for -             however, was different from the one described in
               the proposal, which was used for               Exh. 14, at 19; see Exh. 8 at 18 (correcting this


                     The revised renewal proposal corrects the procedural description by including
             methods to be employed to dissociate -ells                         and by deleting the word
-.
             "routinely." However, although it purports to disclose "potential difficulties," Exh. 8 at 18,
         -   the revised renewal proposal does not mention that the subject's laboratory had substantially
     -       less -success with the       procedure than with the        procedure. This omission was
             important because even in the subject's own view, the use of ,els           was a "very poor
             second alternative" for accomplishing the research objectives..stated.in his proposals.38
             Exh. 11 at 98; Exh. 8 at 17-18. See page 14, above.



             '     The subject acknowledges the "consistent inability to generate e          " of the graduate student charged with
             this task. Exh. 32, at 3. Although he now-claims that he could generate                      s routinely, id, he told the
             University investigation committee that he gave the student dissociated             "relatively infrequently," and that
             ordinarily these       did not work with                 experiments. Exh. 11 at 82-83. The conceded fact that his
             laboratory was unable to produce                recordings in winter 1993 from these           Exh. 32 at 2, could have
             been because (I) the       were not suitable
                                                       g-of                     or (2) although the student could routinely-
                               , she was unable to apply successfully the same technique to =                 The subject's ability to
             use the dissociation protocol years earlier in                         to produce        suitable for the
             studies displayed in Figure 5 of the renewal pr-nbrituet                      to a discussion about the whether
             produced by this same method were suitable for                     , an entirely different type of experiment. See id.
             at 4.
             "
                     The corresponding portion of the revised renewal proposal reads, in pertinent part (with deletions denoted like
             ckis and additions LIKE THIS):


                 -
                        Experiments will be performed on
                       -THE FORMER ARE ISOLATED BY                        y
                                                                                    isolated fromm
                                                                                               i n c u b a t d N .WHOLE
                                                                                                                 ~
                        S-mh in a s a l i n gnw   ei-atnoc                                           trituration and
                        in normal saline,       are placed in a 0           saline and vortexed
                              ARE OBTAINED FOLLOWING INCUBATION O                                      IN
                        CONTAINING                         (5 MG/ML),          (5 MGIML),                         (10 MG/ML),AND
                               (CRUDE   EXTRACT, 20 MGIML) FOR 48-50 MIN AT 37OC. BOTH Tkifprocedures ER&W&
                        produce         ISOLATED-                                0
                                                                  that retain their

         Exh. 8 at 18.
         ''    The issue at hand is the seriousness of the subject's failure to disclose this information to NSF's program
         officer or reviewers. It is entirely irrelevant that the subject disclosed it, .well after the fact, during the University
         and OIG investigations. See Exh.32' at 1.
             In both documents, therefore, NSF and its reviewers were falsely led to believe that
     the subject's laboratory could successfully dissociate     in a way that would permit the




                                             -
    -procedure
         -.                     to be used on the                 , which was the focus of the
     discussion.

            C.      The Subject's State of Mind

            The evidence demonstrates that the subject knowingly misrepresented his laboratory's
    ability to dissociate -ells        for                  in the original renewal proposal.

             As noted, a dissociation protocol that produced                              suitable for
  w
  -as                         essential to the achievement of Aim 3 (1990) and Aim 2 (1993). The
     subject believed that his req~ested~renewal    funding would be jeopardized if reviewers were
     to conclude that his laboratory could not &reliablyaccomplish ,this .task after the years of
     difficulty-free effort reflected in his progress reports. CJ Exh. 11 at 77, 159; Exh. 2 at 3;
     Exh. 4 at 2. The fact that those reports did not reflect-his laboratory's actual difficulties, in
     violation of NSF's requirement that they describe "any problems encountered," NSF90-77 at
     14, gave him additional incentive to hide the actual facts in the renewal proposal. The
     inference is clear that he wanted to conceal his dificulties in order to increase the likelihood
    that the proposal would be funded and decrease the likelihood that the misleading nature of
    his earlier progress reports would come to light. See Part IV, below, at page 27, et seq.

          During our investigation, the subject told us that there were three reasons why he took
   the approach he did in the renewal proposals rather than simply state that he would initially
   conduct the work in                 s and, if he had success, expand the work into -

          First, given the limited success of the p r e p , I fully expected it to be
          a viable prep in the very near future. Second, I decided that the
          -distinction                                                           -r
                            was not as important as other issues discussed in my proposa
          because both in vitro preparations respond in the same manner to
          application. Third, the 15-page limit on - the size -of the proposal severely
          restricted my ability to discuss all issues fully.

. Exh. 25 at 2-3.

             The subject~couldnot,reasonablyhave believed that th-preparation              would
  be viable in the "very near future" as he claims. The subject knew that his graduate student
  had been trying to dissociate cel                             suitable for f        o          r
  more than 2 years with virtually no success. ~ x h1. 1 at 59, 116; Exh. 25 at 1. At the l k t ,
  the subject had no reasonable experimental basis to expect that his laboratory's success rate
  would improve. In fact at the time the original renewal proposal was being drafted, the
  subject knew that, because his graduate student was experiencing so much difficulty working
  with-ells,              the student's project had been realigned to include experiments on both
              1             s           . Exh. 25 at 1. By the time he submitted the revised renewal
              proposal, he knew she had been unable to replicate what little success she had had       -
                                                                                                         -
              -,els.                   Exh. 32 at 2.




             -
                      The subject's after-the-fact claim that the { ' H i s t i n c t i o n was not
              important because both in vitro preparations respond in the same manner to -application
              is similarly unpersuasive. As set forth above, the subject repeatedly asserted that
                   , not e l l             , were the physiological target for -and           the thrust of the
              discussion about Aim 2 in both renewal proposals focused on the "physiological" effect ,of
                     on       currents. E.g., Exhs. 5 and 8 at 17. Further, all of the subject's prior work
 - -
- -           elucidating the mechanism by which n f l u e n c e the          +concentrationin        via
              was conducted in                      , not -              Although the subject could have
 -.           speculated (in his progress reports, his renewal proposals, or in discussions about changes of
             scope with his program officer) that, on .the molecular. leve1,rthe     w-!
             respond the same way, he did not. In fact;-his own evidence.showed that the-
             responded to-           but at a much higher,. nonphysiological,                     . His own
             evidence could not eliminate the possibility that, in the                     another mechanism
             might be mimicking the in vivo mechanism he had shown in                  See Exh. 29 at 3-4. The
             subject effectively conceded as much when, in again revising                  proposal during the
       .     course of this investigation in an eff& to eliminate any misleading aspects (the 1996
             revision, Exh. 28), he clarified that his laboratory would "test [the] supposition" that the
             "downstream effects of the I o n . the i          l    l also be identical in both stages1' by
             "ascertain[ing] whether -causes        a rise in             levels of-in
             using standard  m
             Exh. 28 at 18 (citation omitted).
                                                  measurement techniques that we have used previously."


                     Finally, we view as disingenuous the assertion that the page limit forced the subject to
             omit all discussion of these significant considerations. In the 1996 revision, the subject




            --
             added approximately 20 lines of text related to his proposal to test the effects of =on
             c e              s and, as the laboratory's t e c h n i q u e improved, on -
             Id. at 7, 13, 16, 17, 18. This much additional. text :should. not have.posed serious length
             problems for the proposal.

                     We conclude that the subject acted knowingly when he falsely described the
             procedure for producing, and his laboratory's ability to produce, 1-s               suitable for
           -                    in the original- renewal proposal, when he completely omitted from both
             1993 renewal proposals any description of his difficulties, and when he failed to clarify in the
             revised 1993 renewal proposal that his laboratory's ability to prepare                 s varied
             significantly from its ability to prepare -
  111.     EXPERIMENTAL RESULTS WERE RECKLESSLY MISSTATED IN TWO
           INSTANCES~~
                                                                                                                      I
           A.        The Statements

       The original renewal proposal contains the following statement about an experiment
 with TEA

           We have found that b l o c k s the majority of net                , and
           substituting a[        ] for             eliminates the remaining       -


 Exh. 5 at 16. After stating that                                        would be b                  y         the




                                -
 proposal makes the following statements

           In our hands, b l o c k as -                                   concentration of 104M.                          1

 and

          ~omtnatel; b l o c k s n                            c    e       l          s without apparent
          interference with

Id. at 17 and 18, respectively.

          B.         How the Statements were False and Misleading

          These statements were simply false.40 See Exh. 9 at 2.
39
       These were Allegations 2 and 3 in the University investigation.

     1n the revised renewal proposal, the subject accordingly revised.these statements. ..He replaced the assertion
a b o u e i t h a plan

          For example, the 3 .major          cumntsvpresentin               , l e delayed-rectifier, a    -
                       cumnt, and a          like current, will be elimrnated using a combination of-
              +,and a =protocol     that inactivates currents, respectively.

Exh:8 at l 6 . Relyinglon studies he conducted afir the allegations were raised (which was after the original
renewal proposal was submitted), Exh. 9 at 2, he replaced the statements a b o u t i t h

         Our preliminary studies with s u g g e s t that it   block sf'^ aconcentration of
          IO ~ M .

Exh. 8 at 17, and
                         -
                      The subject told the University he had relied for these statements on oral
              communications with the graduate student. Exh. 9 at 1 and 2. However, the graduate student
              told the University that she had not performed the e x p e r i m e n t . Exh. 6 at 1-2. With
              respect to          the student said that her results simply showed that, in preliminary
              experiments involving i n t a
              the renewal proposal, -at
              the renewal proposal, had sotpped-.
             -would        interfere with
              lower concentration. Id.
                                           m                   o
                                                                 rather than the isolated,ells        described in
                                                  a IO-jold higher concentration (1O"M) than that described in
                                                                         Id. Her results did not address whether
                                                                                             isolated      s at the
-   -
-.
                     By removing them from the revised renewal proposal, Exh. 8 at 16-18, the subject
             conceded the inaccuracy of his statements, in the original renewal proposal, about w a n d
                       We do not deem it necessary for .purposes of this report to address m e flat
             disagreement between the subject and the graduate student over the content of the discussions
             they may have had.4' For reasons set forth below, we believe the subject's contention that'he
             included statements in his original renewal proposal based solely on oral discussions with this
             graduate student is enough to establish that he deviated in a serious way from accepted
             practices and therefore committed misconduct in science.

                    C.      Nature of The Alleged Misconduct

                 The subject claims that he included the statements about a n d m x p e r i m e n t s
         based on oral discussions with his graduate student. He admitted to the University that he
         took no steps to verify the accuracy of his understanding of the experimental results or the
         reliability of the work on which they were purportedly based. Exh. 9 at 1-2 (he did not
         review her data) and 3 (he did not ask her to review the renewal proposal before he submitted
         it to NSF). Although we do not consider this to be as serious a violation of accepted
         practices as those set forth in Parts I, I1 and, particularly, Part IV, of this report, in the
         circumstances the subject concedes were true, we conclude this does seriously deviate from
         accepted practices.

                    Those circumstances were as follows.




        ''    The student claimed she never told the subject that she had done these experiments. She believes she told the
        subject she had not done the-       riments.       Although she may have told him about her x p e r i m e n t s ,
        these differed from those he reported. Exh. 6 at 1-2.
                               The subject believed his graduate student had demonstrated an inability reliably to
                        perform some, but not other, experiment^.^^ The subject described at length to the committee
                        of investigation his knowledge of the student's research failures in several different
                        laboratories at two institutions before she came to his laboratory. Exh. 1 1 at 12-16. As
                        described above, she was unable for more than 2 years predictably! to- 7
                        c    e             s in his laboratory. According to the subject

                                She did very well in my lab for a few months and then started to flounder. She
                                floundered for several years and her workwent poorly. And I tried very hard
                                and consistently tried to work with her and assist her in every way possible.
                                However, her work went poorly. . . .

                        Exh. 11 at 13.

                               [H]erels a case, in my judgment, where L astudent only.tdid anything when I
                               helped her. The minute the student*stoppedreceivingmy help, physical help,
                               the student did nothing. The student kept coming back to me to ask me for
                               help and I would give to it [sic] her. But there comes a point, I believe,
                               especially when we are talking about a senior graduate student, when the
                               student has to go out and do it by themselves. And in this particular case that
                               never happened.

                    Id. at 29-30.      .


                               Her recent performance at meetings, either privately with me or publicly with
                               her committee, demonstrated a serious lack of organization and focus. For a




                                                                                                                                  -
                               variety of reasons she inevitably came to each meeting without all of her data.

                   Exh. 9 at 2.   He characterized those of her logs which he had viewed as "not very
                   understandable or complete."43 Exh. 11 at 38-39.
                   42
                         The subject's 1990 proposal contains a glowing description ofithe graduate,student's capabilities.. He states she
.-   I .       .                                    ho has been the majorlcontributor to .our.studies on the               of the
                                                       is more typical of a postdoctoral associate than of a graduate student and it is
                   planned that she will be a major contributor to the                   studies proposed here. . . . It is probable that
                   she will fmish her Ph.D. before the three years of the grant are completed . . . ." Exh. 1 at 32. Over the 3 years
           '
                   leading to submission of the 1993 renewal proposals, his impression apparently underwent a radical transformation.
                   43
                           The University committee of investigation agreed. It said

                              The notebook pages . . . were essentially unintelligible to anyone except [the graduate student].
                              There were few complete thoughts and only a few notes describing experiments. These notes
                              required [the graduate student's] intervention to decipher. Thus, there was no way that the
                              committee could independently establish that certain experiments had or had not been performed.
                              The committee was rather surprised that such.a notebook would have been considered acceptable
                              by [the subject].
               In circumstances where a mentor has serious concerns about a student's ability to
        conduct experiments and organize and present results, it violates accepted practices for the
        mentor to rely, in documents that are supposed .to be "prepared with the care and
        thoroughness of a paper submitted for publication," NSF92-89 at 1, on oral conversations
        with the student. He should-instead insist on reviewing her data or, at a bare minimum,
        permit her to review the relevant portions of his proposed submission.

               The subject essentially agreed when he told scientists on the University committee of
       investigation that it was "[a]bsolutely" his practice to spread out copies of his students' data
       in front of him when he was writing a paper. Exh. 11 at 137. When the committee inquired
- -
                 So you use quite a drastically different procedure writing a proposal for grant
                 versus writing an article to be submitted?

       he said

               No. No. . . . When I write a grant I have the data in front of me. When I . . .
               write a paper I have the data in front of me. When I'm thinking about a
               question at home I don't have the data in front of me.



               The University committee of investigation said that the subject's claimed actions were

              not acceptable scientific practice. A simple way to assure that such statements
              of results are correct is to ask each person involved in a particular set of
              experiments to read that section of the proposal (or the complete proposal). In
              the absence of that simple check, the investigator should have obtained written
              documentation of results. This is not a matter of mistrust in a student,
              technician, or postdoctoral fellow and their work. Such documentation
              provides a means to be certain that results are reportedcorrectly. .

      Exh. 14 at 17. Similarly, the program officer told us

               It is NOT common nor should [it] be acceptable that PIS present data or
             . experiments if they have not actually reviewed the primary data. . . . I feel very
               strongly about this point. This includes seeing the numbers, the gra[ph]s, etc. .
               . . An oral explanation without subsequent review of the data would be
               unacceptable in my laboratory.


      Exh. 19 at 2. See Appendix B.
               Exh. 2 1 at 1.

                   We agree. A reasonably prudent scientist proceeding in good faith would have
           insisted on carefully reviewing this graduate student's written record of her experiments, or at
           the very least on having the 'student review his written summary of her results before
           reporting them as factually accurate in an NSF proposal. Close review is particularly
           necessary for students with no track record and students with a problematic track record.
           Had the subject taken some of these minimally expected steps,. the .renewal proposal
           presumably would have described more closely the student's results and the allegations
           would not have arisen.

                      D.        The Subject's State of Mind

                  The University committee unanimously-concluded that, :in this. instance, the subject
          "was negligent to quote results from his memory without seeking~documentationfor those
          results," and+thatthis was not acceptable scientific practice. Exh. 14 at 17. As noted above,
          under-the University policy-definingmisconduct, the committee had no need to, and did not,
          consider whether the subject's conduct was more than negligent. Exh. 19 at 2. OIG
         -concludes that the subject's action was reckless and therefore also constitutes misconduct in
          science under NSF's definition.44




         -
                  Evidence about              effect on            of the    was important support for the
           project described in Aim 2 of the original renewal proposal. It was .an affirmative
           demonstration of the research plan described in the preceding sentence of the proposal, that
           "                          will be isolated from other currents using a combination of
                          and                             ." Exh. 5 at 16. Similarly, the claimed results of
           the m x p e r i m e n t s were important because s o 1 p - s 4                       that disrupt
           the seal between the              and the               . This seal is necessary
                  experiments proposed in Aim 2. However, the subject knew that, for
.... .   - usehl, it had-tohpodck-btl                                       of the      without disrupting


                                   -      -


          44
              As set forth in OIG Semiannual Report No. 9 at 36, for purposes of NSFs misconduct in science regulation,
          OIG views the difference between negligent and reckless conduct as follows

                     A person acts negligently if, according to community standards, that person should have acted
                     differently because a reasonable person in the same circumstances would have acted differently.
                     A person acts recklessly if, according to community standards, that person acts in a way that is a
                     serious deviation from the way a reasonable person would have acted in the same circumstances.

         The University's then Vice Provost believed that the subject's actions in relying on oral statements by the graduate
         student "represent prac'tices that seriously deviate from those that are commonly accepted within the scientific
         community for proposing, conducting, and reporting research." Exh. 20 at 2. -
                       the other t        h               e subject was interested in studying. See id. at 17; Exh. 11 at
                       96; Exh. 9 at 2.45

                               If, as the graduate student claims, these experiments were not performed and, if they
                       therefore had not been cited as support for the subject's experimental design, the research
                       design in Aim 2 (1993) would have appeared more speculative. Given the subject's stated
                       doubt as to his graduate student's competence and apparent recognition that the accepted
                       level of care required in preparing papers and grant proposals generally requires personal                        .

                       review of the data, his complete failure to check,.or provide for a check on, his descriptions
                       of experiments important to establishing the soundness of his experimental design before he
 -      -
.- .-
                       certified to the accuracy of those descriptions on the cover page of the renewal proposal
                       constitutes at a minimum, reckless conduct. At worst (if, as the graduate student says, she
                       never told the subject she had performed these.experiments), it reflects the intent to deceive
                       NSF and its reviewers as to his proposal's likelihood of success.




                                                                                                                               -
                       IV.    DESCRIPTIONS OF PROGRESS ON AIM 3 OF THE 1990 PROPOSAL
                              WERE KNOWINGLY MISLEADING
                              A.     Background

                                     1.       Background to the 1990 Award




                                                                                                                          -
                              The background portion of the 1990 proposal describes research suggesting that
                       increase the                            in e      l             s through the
                                        Exh. 1 at 10.

                           In 1988, before he received any NSF support, the subject and a collaborator
                conducted 20-30 repetitions of an experiment designed to determine whether they could
                measure an m e d i a t e d rise in                                  (collectively the
                Experiment"). In the-xperiment,                                         I-\
                                                                noncontracting individual
                        were filled with a fluorescent indicator ff The subject and his collaborator
                then measured changes in fluorescence to determine the                             nwithin
            - .f i l l e d - - c e l l s                 when they were- exposed - to - i n .the presence or
                absence of                      Exh. 1 at 10, 11; Exh. 24 at 1-2.

                  '*  . The subject now claims that these results were a "relatively minor technical achievement." Exh. 32 at 5.
              q   Whether or not they were minor, they were crucial to the subject's ability to conduct the experiments. Moreover, the
                  very fact that he included the statements in the renewal proposals raises a strong inference that he considered them
                  important to a solid presentation of his experimental design. Cf:Exh. 25 at 2-3 (the subject claims he omitted
                  details of his experimental design because of the page limitations for NSF proposals).
                  46
                       -anges             its fluorescence in the presence or absence
                                                                                  '
                                                                                      of     . Those changes may be measured with
                  the aid of a fluorescence microscope and a spectrophotometer.
                         Data collected in the -Experiment           from a single -                     were set
                  out in Figure 6 in the background section of the 1990 proposal. Exh. 1 at 11; Exh. 24 at 2.
                  The proposal described the Experiment as showing "a small yet consistent rise" in        when
                  -                    were exposed to         Exh. 1 at 10, and stated that the rise in     was
                  "only partially reduced" in the presence of       which blocked                           . Id.
                  The       blockage effect was cited to a 1989 abstract by the graduate student and the subject.
                  Id.

                          The findings about the influence of changes in the                                on
                  electrical activity were supported by the statement that        (a compound that specifically
 --
                  binds         thereby making it                           ) reduced          frequency and
.- .-
                  blocked the                      effect of         Id. at 10. Conversely, a compound that
                  increased the                               caused an increase in        frequency. Id.

                          The proposal articulated a hypothesis based on this work

                          The data:from the          experiments suggest .that -may          be modulating
                                  il4']by simultaneously increasing           permeability at the
                      -                and                 release from             stores. Taken together,
                          these results lend credence to the hypothesis that -alters
                          which then causes a change
                                                  1- .ni                                               i




              Id. at 10.

                     In part, the-        Experiment and associated analysis provided the justification for
              the project described as Aim 3 (1990).

                                 2.     Aim 3 of the 1990 Award

                     Aim 3 proposed to build on conclusions from the                  Experiment and the
              subject's studies on              "by isolating and characterizing the                 in the
              i          n          g standard \\                            procedures." Id at 19. The
   -.   +   - proposal ~tated~that these experiments would-be perf0rmed.b~the .graduate student, who had
              "extensive '                   Itraining in      --                      cedures." Id.

                    Reviewers were enthusiastic about the subject's proposed work, and thought that the
             subject's laboratory was technically capable of performing the experiments. The proposal
             was funded.


             47
                    Brackets signify concentration. The notations   and   are used to denote the   , vis-a-vh the
                        : i.e.,                of the
                          B.       The Statements

                                   1.       1991 Statement of Progress on Aim 3

                        The 1991 progress report states that it discusses, among other things, work completed
                 in the first nine months of NSF support on Aim 3 of the 1990 award. Exh. 2 at 1, 3.
                 Although the proposal never states so the bulk of the associated text repeats information
                 known to the subject in 1988, before the proposal was hnded. Almost half of the text is
                 identical to the text in the background section of the 1990 proposal. However, the
                 collaborator is no 1ongerAmentioned and the 1989 abstract is no longer cited. The remainder
  -     -
.- --
                 subtly alters the presentation-of information: the "small yet consistent       " in    ' is
                 presented as the equally correct, but seemingly more impressive "two-fold increase" in
            .    and the data "suggesting" how m i g h t work is presented as the basis for a "model." Id.48

                               ,   2.      1992 Statement of Progress on Aim 3

                         The 1992 progress report for the second year's work states

                         During our first year of support, we made significant progress towards
                         achieving all three specific aims . . . . This work was detailed in an earlier




                                                                                                       -
                         progress report submitted July 1, 1991. Since that time we have continued
                         working on these issues . . . . Each of these is discussed below.

                Exh. 4 at 1. The report continues

                           Work performed prior to the current grant period ascertained that t h e act
                           on the-           via an increase in                  levels of
                    ' .1-1                       Our work during the first year of the current grant
                           period using the     d y e d e m o n s t r a t e d that t r i g g e r s a rise in


                Id at 2 (emphasis added).49




                     Very little of the report referred to work actually done during the award period. One sentence of the 1991
                progress report states that either of two compounds that bind         (         and         ) decrease        and
                block the effects of -and               Another states that the subject's laboratory was '             individual
                          to determine the presence of an - s e n s i t i v e                   ." Id at 3.
            49
                 The report then describes "recent"experiments using                d t e c h n i q u e s to determine the
            presence of an e n s i t i v e                  n the
                                3.       Description of Results from Prior NSF Support
                                         in the Original and Revised 1993 Renewal Proposals

                         The 1993 renewal proposals describe progress on Aim 3 of the 1990 award under the
                  caption "Results From Prior NSF Support. I f Exhs. 5 and 8 at 8, 10. After identifying the
                  "NSF support" as the 1990 award, the proposals say

                         During [the period] of support, we have made substantial progress towards
                         achieving all three specific aims . . . . Each of these issues is discussed below.
 -   -                                                                                        0




- .-              Exhs. 5 and 8 at 8. The vast majority of the discussion of progress on Aim 3 describes work
                  completed before the subject's receipt of NSF support and that had originally been described
                  in the background section of the 1990 proposal.

                  Figure 5 of that section is identical to Figure 6'from.the~:backgroundsection of the
           199Ovproposaland the text describes the experiment it presents as "recent." Exhs. 5 and 8 at
           10; Exh. 24 at 2. Yet, asethe subject has admitted throughout the investigations, the
           underlying data for the text and identical Figures came from the E x p e r i m e n t he
         - conducted with his collaborator, while visiting the collaborator's laboratory n
                                                                                         i-          in
           1988. Exh. 11 at 90-9 1;Exh. 24 at 1-2; Exh. 32 at 6 .

                    Also, much of the description of the 1988              m
                                                                          Experiment mirrors text from the
             background section of the 1990 proposal, with the same subtle alterations found in the 1991
             progress report to make it sound like recent work. In addition, text about        that in 1990
             was cited to the 1989 abstract, and in the 1991 progress report was presented without citation,
             is now cited to a 1991 abstract the subject co-authored with a student. Approximately one
             third of the discussion on Aim 3 presents the results of work published before the award
             period; almost half describes the 1988 m ~ x ~ e r i m e n t .

                     With respect to actual accomplishments under Aim 3 (1990), about which one would
             expect to read under the caption of "prior support;'"the renewal~proposalscontain little more
             than one line about the             and          experiments,? .andlstaterthatthe laboratory has
             "recently beenaable to                   individual           to test this~model." Exhs. 5 and 8
             at 10; see also id. at 16; Exh. 25 at 2.



         .   so   The original renewal proposal refers to both          and         experiments. The revised renewal proposal
             does not mention         . Exhs. 5 and 8 at 10. When we asked why, the subject said the         work "was not as
             strong as the       work and it had not been done as many times." Exh. 24 at 1. The subject originally told us that
             the         work was a "repeat of work done first in 1984-6"but revised that to a "modification"of that work. Id
             The text of the renewal proposals are consistent with the proposition that no new information was gathered about
                     Cf:Exh. 1 at 10; Exhs. 5 and 8 at 10.
                    C.       How the Statements were False and Misleading

                  As a result of our investigation, and as described above, we learned that the subject's
           laboratory did not make "substantial progress" toward Aim 3 (1990)." Exhs. 5 and 8 at 8.

                  In addition, although the text of the proposals and progress reports nowhere so
          indicates, the            Experiment data, which were prelimin&* and did not yield
         repeatable results,53were all collected with a collaborator at the collaborator's laboratory in
     I   D      i      n 1988. The subject performed no               experiments during the period of
         the award.54 Exh. 24 at 1-2; Exh. 32 at 1-2.
--

          5I
               The subject denies his proposals were misleading. He states that his laboratory has consistently achieved or
          exceeded the aims set forth in his proposals, and that the proposals accurately predicted the research that was
          ultimately completed. Exh. 32 at 10. These assertions are simply false. Because he failed to accomplish the goals
          of Aim 3 (1990), he reiterated them as Aim 2 (1993): Exh. 25 at I;\, see also Appendix A.
          ''   The subject described these data as "preliminary" in his successfil 1992 request for funds to purchase a
                     microscope and during the university investigation. Exh. 3 at 2; Exh. 11 at 9 1.
          '     The subject states in the renewal proposals that "it has been difficult to obtain repeatable results in multiple
          trials on the same preparation" due to what he characterized as "the incomplete buffering ability of this indicator
          under constantly changing            conditions." Exhs. 5 and 8 at 18. The following exchange occurred during the
          subject's discussion with the committee of investigation about Figure 5 of the renewal proposals (Figure 6 of the
          1990 award)

                   Q:       . . . . Now is that a real difference [in the response of    in the presence or absence of
                                  ]? Is this a real difference or is this one example?

                  A:       This is one example.

                  Q:       But is that a consistent pattern?

                  A:       Okay, I did it twice.

                  Q:       You did it twice. So that's a fairly reliable difference pattern-you'resaying?

                  A:       Well, both of them that were done successfi~llydid that.

         Exh. 11 at 89-90. The subject has taken different positions as to the number of instances in which the Experiment
         worked, and the number in which it did not work. He told the committee of investigation that the Experiment
         "worked twice towards the end," Exh. 11 at 89, 9 1; but he told us that he had had two successful runs with    in
         the presence of    and four to five successful runs with      in the absence of       Exh. 24 at 1.

               The subject told us that he had included the E x p e r i m e n t because at the very outset of the 1990 award,
         he "plotted the remaining 2-3 sets of data that were originally collected in 1988. From these plots I concluded that
         my initial conclusion reached in 1988 was correct. . . . [I]n actuality [I] was describing my plots of the remaining
         two data sets and their incorporation into the total data for those experiments." Exh. 24 at 1 (emphasis added). He
         told us that, despite the equipment funds he received fiom NSF, he had been unable to complete the set-up required
         for him to conduct these experiments in his own laboratory. Exh. 23.
                       The subject originally used t h e ~ x ~ e r i m easn background
                                                                                 t          support for Aim 3
                (1990). Then, when his laboratory encountered difficulties in performing that work, he used
                descriptions of the -xperiment            as a substitute for progress toward Aim 3 (1990).''
                The subject generally described the 1988 E x p e r i m e n t in a way that would cause
                reasonable readers to conclude that his data were not preliminary and that they demonstrated
I               acceptable research progress under the 1990 award.56

                        The program officer advised us that when PIS present preliminary data in proposals
                they should provide information about the number of replicates and the variability among
                such experiments. The program officer said, "[ilf data are not labelled as 'pilot,' then I
     - -
    .- -        assume and expect them to be already published or in the process of preparing for
                publication. PIS should label pilot data as such and . . . discuss the quality of these data."
                Exh. 2 1 at 1. This caution is particularly important in           research .where the results
                from experiments employing                     can.be highly\variable.
                    - We concluded that the subject's presentations about -were         designed to and did
            mask the subject's lack of progress and the difficulties experienced by the subject's laboratory
            on Aim 3 of the 1990 award (which, as a result of those difficulties, see below, was re-cast as
            Aim 2 of the renewal proposals).

                              1.       The 1991 Progress Report

                   Nothing in the subject's presentation of the 1988 E x p e r i m e n t as work
            performed on Aim 3 in the first 9 months of NSF support for the 1990 award indicates what
            portion of that work was conducted during the grant period. Although the subject now
           concedes that the Experiment was performed entirely before the grant period, and that the
           only work he conducted during that period consisted of plotting an additional 2-3 runs, the
           description of the 1988              Experiment follows a phrase about the subject's "work
           during the past year," Exh. 2 at 3, and includes such other phrases suggestive of recent
           activity as "[olur experiments establish;" "[tlo test hrther the hypothesis . . . we directly
           measured;" and "from these data, we have .proposed a model .. . ." Id. Other aspects of the
           report reinforce the impression that these edatazwere obtained bythe subject after the grant
           waslawarded.-Notably, citation to the pre-grant~collaborator-is de1eted;and text that in 1990
           was cited to a 1989 abstract is presented without citation. Id.


           55
                'As set forth in parts I and I1 at pages 1 1 through 22 above those difficulties included problems preparing        ,
                                  for                    as well as reliably                  those -ils,      both of which were
           central to the ability to m     !       o     n Aim 3.
           56
                We take no issue with the preliminary nature of these data or their reliability, per se. What we do challenge is
           the subject's misleading presentation of these data over the course of the 1990 award and in the 1993 renewal
           proposals as if they were more than preliminary and as if they were gathered under the 1990 award.
                      The subject conceded during the investigation that a program officer reading this
               report "could have read" what he had written "as the            experiments conducted in
               1988 were conducted under my 1990 award and not that I had plotted the remaining two
               runs." Exh. 24 at 1. We conclude that the subject's description of the 1988 (.
               Experiment could only have bken interpreted by a reasonable reader as meaning that it had
               been conducted under the 1990 award.

                         In addition, although the 1991 progress report states that the subject's laboratory was         .
               -ndividual                               , it fails even to mention the difficulties the laboratory
               was experiencing with the research described as Aim 3. As set forth in parts I and I1 at pages
 --
 -
.-
                11 through 22 above, those difficulties included the                   and
                                             , both of which were essential tools for conducting the research
               described in Aim 3.

                                2.       The 1992 Progress Report

                   The 1992 progress report continues to present the 1988 -Experiment                   as
            progress under the award. Its descriptions of this Experiment, found in the section entitled,
            "Mode of action of the o         the                       e'
                                                               are similar to those contained in the 1991
           progress report. Exh. 4 at 2. It describes the 1988m ~ x p e r i m e n following
                                                                                       t          a phrase
           about the subject's "work during the frst year of the current grant period using the
           -"          Id. at 2. The section on the             concludes by stating that the subject had
           recently used a n d                    techniques to identify                and that "one and
           perhaps a second" had been identified. Id. It fails to mention any problems the laboratory
           was experiencing with the      preparation and            techniques. Id.

                               3.       The Description of Results from Prior NSF Support
                                        in the Original and Revised 1'993 Renewal Proposals

                   The 1993 renewal proposals also cast the -xperiment                 as work done during,
           rather than before, the start date for the Subject's 1990 grant. Exhs: 5 and 8 at 10. There is no
      *    text that states or suggests that the subject simply,plotted the data.gathered from two or three
           runs conducted in 1988. Notably,' Figure3 in the renewal proposals, which is.identica1 to
           Figure 6 in the 1990 proposal, has not been modified to show that the additional plots the
           subject claimed to have performed during the grant period had solidified his conclusions or,
           indeed, contributed in any way to his analysis of the "preliminary" data he had secured and
          -plotted before the grant was awarded. In addition, citation to the pre-grant collaborator has
           again been deleted. Text that, in 1990, was cited to the 1989 abstract and, in the 1991                   .
          progress report, was presented without citation is now cited to a 1991 abstract the subject co-
           authored." The presentation in the renewal proposals retains the language inserted in the
           1991 progress report that inflates the significance of the work. Id.
          57
                  That text read as follows in the renewal proposals
        We concluded that the subject's discussion of the           Experiment in the 1993
 proposals could only be interpreted by a reasonable program officer as describing an
 experiment conducted under the 1990 award, in the subject's laboratory, without a
 collaborator. The program officer concurs. Referring to Figure 5 and the associated text, she
 states

          I can not find any indication that Figure 5 is preliminary data. Indeed, the
          [subject] states that 'from these data, we have proposed a model . . . .' This is
          not presented as preliminary, it is presented as solid strong evidence
          supporting the development of a model. . . . When I read this section, I am
          assuming that the data were generated by [the subject's] laboratory and are
          very solid and can be replicated.



         . .. I [would] have never interpreted the figure as pilot data.
 Exh. 21 at 2.

       The combination of omissions and misstatements was particularly material at this
stage. As the program officer advised us

           ..
         I . believe that the difficulties obtaining repeatable results would be of great
         interest to the reviewers and the program officer. If reviewers had been aware
         of potential problems or dificulties then the fact that the results were obtained
         in 1988 would raise questions about either productivity andlor reliability. I

         Interestingly, the e d u c e d rise in          was partially blocked in the presence of lOmM
                           , a blocker of            from the            milieu-(

Exhs. 5 and 8 at 10 (emphasis in original). In the 1990 proposal it read

        Interestingly, the-induced        increase in'                  was~only.partiallyblocked in the
    . . presence of lOmM             a blocker of          f l u x ; i n ' t l i e ~ - L /           see
        next section).

Exh. 1 at 10. The 1991 abstract cited in the renewal proposal describes.no new work that supported the proposition




                                              -
for which it is cited. It simply states

        Previous work on the              has shown that          wo
               second           system. m a d d e d to individual,
        immediate rise in       This rise is partially blocked in the presence of lOmM           suggesting
        that the rise in    is due both to the opening of                         and to release by
        stores.

\
Mote..)and            I
           are different acronyms for the same compound.) #
                     personally was unaware that he [wlas having difficulties with obtaining
                     repeatable results and this was also true for all but one reviewer . . . .lSg1

            Exh. 29 at 1.

                   One of the few sentences in this section that addresses work actually performed
            during the award period states that the subject's laboratory has "recently been able to                  w
           -individual        ce         " and that such experiments are discussed in Aim 2 of the
           renewal proposals. Exhs. 5 and 8 at 10. Although that information was crucial to the fair
           and objective evaluation of the laboratory's research performance competence, including the
 --
--
           technical soundness of the re-proposed approach, see NSF92-89 at 10, the renewal proposals
           give no indication of the extensive difficulty encountered by the subject's laboratory in
           performing those same experiments on                                 s as Aim 3 (1990), nor do
           they suggest alternative approaches based on-thesubject's actual experience.




                                                                                                            -
                    D.       The Subject's State of Mind

                    In evaluating the subject's state of mind, we first discuss those facts that created a
           motive for the subject's miscasting of the 1988 -Experiment             as .progress under the
           1990 award: the subject's perceived need to hide his laboratory's difficulties performing, and
           lack of progress toward, the research described as Aim 3 (1990)lAim 2 (1993). We then




                                                                                                            --
           identify additional facts that convince us that he intentionally misrepresented the                                  I



           Experiment to achieve this end.

                            1.       Motive

                As set forth above, it was essential to the subject's ability to conduct the research
        originally described as Aim 3 (1990) that his laboratory first be able to isolate
   -esl                       suitable for a        n          d that it then be able to
        such          Because the subject's laboratory remained unable to perform either technique
        reliably, it made no significant progress towardathis Aim during the Fperiod of the award.
        Instead of describing "significant scientific developments .and . . . any problems
 -    + encountered," NSF92-89 at-16,NSF90-77 at -14, in'his=progressreports;xhe chose to describe
        prior work as progress and to omit discussing his problems.




                    through -
                 Had the subject not discussed the 1988 d a t a he would have had little to
          report in the progress section of his renewal proposals. In 1993, for example, in the
          discussion of his laboratory's progress under Aim 3 (1990), the subject simply said, "[wle

               That reviewer's stated concern focused on the absence of supporting data for the subject's plan to isolate
                                             and the use of blockers, not on the -xperiment.            See 15 July 1993 ad
          hoe review at 1. These concerns were not based on any affirmative statements by the subject concerning difficulties
          with or limitations in the data.
               have recently been able to



               laboratory's progress in    -       and
                                                          p individual e




               in the research as it was described in Aim 3 (1990pthat is,- 1
               dissociated c e l
                                                                                s to test this model." Exhs. 5
               and 8 at 10. He said nothing about the substance of his laboratory's research over the grant
               period. (Indeed, the one Figure that could be taken as progress (Figure 7, described above at
               Part I, pages 11 through 20) is presented elsewhere in the proposal.) He did not discuss his
                                                          m                                and how that might
               relate to progress toward Aim 3 (1990); he did not discuss the difficulties he had encountered

                                             . He recast Aim 3 (1990) as Aim 2 (1993) without stating "the
               relation of the completed work to the proposed work," NSF92-89 at 4, and without
               modifying the proposed work in light of the difficulties his laboratory had experienced
-     -
- -            during the 1990 grant period. As noted above, this was because he felt that to acknowledge
               his laboratory's difficulties in this area would jeopardize the funding sought in the renewal
               proposal^.'^ See page 17 above; Exh. 11 at 159.

                   This provided the. subject with a strong: motive to: cast ?the:-    Experiment in
           such a way that it appeared to representjprogress toward Aim 3-'(1990): When we asked him
           why Aim 3 (1990) and Aim 2 (1993) were so similar, he said that "[blecause [his graduate
           student] had not made significant*progresson the research described as two elements in
           Specific Aim 3 of my 1990 proposal, I included this research in my 1993 proposal as two of
           the three elements of Specific Aim 2." Exh. 25 at 1.60

                 The subject's presentations from 199 1 through 1993 of the 1988 x p e r i m e n t
          combined with his silence, during that period, about his laboratory's problems in making
          progress toward Aim 3 (1990), misled the program officer and reviewers about his progress
          on the research initially funded in 1990 and the likelihood of success of the research he Was
          re-proposing to do. Both of these were elements of the review criteria, specifically research
          performance competence and intrinsic merit of the research.



          59
                The subject's instincts were sound: a fair-and accurate portrayal of- his7laboratory's actual difficulties and
          accomplishments might well have resulted in diminished support.. The program~officerdoes not believe reviewers
          would have rated the 1996 revision as positively as they rated the April ;I993 rene~al~proposal.    Based on the 1996
          revision, the program officer "would never 'have recommended five years of support;" and believed serious
          questions would have been raised about the feasibility of Aim 2; ifsupport had been recommended by the panel, the
          program officer "would have probably recommended two years . . . but at a reduced level . . . ." Exh. 29 at 4. CJ
          id ("If questions were raised about all of the specific aims, I do not believe that the [advisory] panel andlor ad hoc
          reviewers would have been as enthusiastic for the proposal. I definitely would not have recommended this level or
          duration of support.")
          60
                The 1988 -Experiment           was background research supporting Aim 3 (1990), which envisioned new and
          different work. The work proposed in the fmt two parts of Aim 2 (1993) is virtually identical to that proposed in
          Aim 3 (1 990). Exh. 1 at 18-21; Exhs. 5 and 8 at 16-18. (Indeed, the second part of Aim 2 (1 993) is virtually a
          verbatim transcription of text from the 1990 proposal. Id) The third and final part of Aim 2 (1993) is a further
          extension of the new work that the subject proposed but did not perform.
                         2.        Intent

             The subject originally described the 1988               Experiment in the background
      section of the 1990 proposal. He gathered no addiiional data during the period of his NSF
      award and had not purchased the equipment to perform such runs; he knew the                                   w
      Experiment was only preliminary and had been performed with a collaborator in the




                                                                        -
      collaborator's laboratory before, rather than during the grant period. Exh. 24 at 1-2; Exh. 11
      at 89-91; Exh. 3, at 2; Exhs. 5 and 8 at 18. The subject nevertheless described the 1988
      ~ x ~ e r i m e atnlength  t    in the 1991 progress report and again in 1992. In 1993, he
      moved the description of the -xperiment              from background to a section purporting
--
--
-.
      to describeprogress achieved by his laboratory under the award.

              The subject justifies his treatment of the              Experiment as progress on the
       grounds that he was describing his "plotting of the two runs of data collected in 1988 and the
       reanalyses of all the data," which, he maintained, were completed.during the grant period.
       Exh. 24 at 1; Exh. 32 at 6-7. Yet, the subject omitted from.al1 of his submissions to NSF any
       mention of the two plots he now claims constituted his only actual progress with respect to
                  The Figure that depicts the E x p e r i m e n t in the 1990 proposal and the 1993
      renewal proposals contains two separate plots: one represents the influence of          and the
      other the absence of       +. Exhs. 5 and 8 at 10, Figure 5. The subject told us he conducted a
      total of 2 runs in the presence of      +and 4-5 runs in the absence of        Exh. 24 at 1. He
      said that, before the award period, he plotted all of the data sets except 2-3 runs in the
      absence of          and that he plotted these runs during the award period. Id. Notably,
      however, the Figure remained unchanged from its first appearance in the 1990 proposal. The
      subject said, "[tlhe plot appearing in my 1990 and 1993 grants is the best data run I obtained
      in the 1988 [experiments]." Exh. 24 at 2. Accord Exh. 32 at 7.

             Likewise, the text contained no mention of additional plots or re-analysis. Although
     there were textual changes, these only served to inflate the apparent weight of the original
     findings and to make it appear that the Experiment had been undertaken by the subject alone,
     in his own laboratory, during the course of the 1990 award. Those changes-including
     recasting a "small, yet consistent rise" as a :"two-fold increase,'! ,characterizing as a model
     what had.been a suggestion, deleting all citation to .the collaborator,6' replacing citation to a


     "

     of"-



                                 -
           The original phrases were, "in collaboration with Dr.
                                 and "analyzed on Dr.
     he failed to acknowledge Dr. -ecause
                                                                                  at the Department of-             University
                                                                                    system." Exh. 1 at 10. The subject said
                                                        of space limitations and lack of relevance. Exh. 24 at 1. Space
     limitations and lack of relevance are neither acceptable nor, in this instance, plausible excuses for failing to properly
     acknowledge a collaborator. For brevity he could have simply replaced his original 22 words of acknowledgment
     with "in collaboration with                  or with a bibliographic citation that a c k n o w l e d g e d . (There
     was no page limit on bibliographic citations. NSF92-89 at 6.) In 1991 the subject published a review article
                           containing a description of the E x p e r i m e n t that is essentially a verbatim transcription
     of the presentation in the background section of the 1990 proposal. Notably the acknowledgment to the collaborator
     and reference to working in the collaborator's laboratory have been deleted from this review article. Yet, authors of
     1989 abstract with citation to a 1991 abstract, describing the r e s u l t s as "recent," and
     placing the updated description in the "results" portion of the proposal--can only be viewed
     as knowing and intentional.

            The subject knowingly provided NSF with false and misleading information and
     omitted critical information in order to suggest that this was his own work accomplished in
     his laboratory under his 1990 award, to create the impression that his research program was
     more successful than it was, and to achieve the most positive reviews possible, so that he
     would receive out-year funding on the 1990 award and the renewal proposal would be
     funded.

                           OIG ANALYSIS: MISCONDUCT IN SCIENCE

             The evidence we describe aboverdemonstrates,:in:our judgment, that, for each of the
     allegations discussed, the subject committed acts that deviated .from,accepted practices in             -
     proposing and reporting work to NSF, and-that he did so with-a culpable state of mind. The
-    University concluded that each of these acts that it considered constituted scientific
     misconduct under the University's definition. We believe that these acts, both collectively
     and separately, constitute serious deviations from accepted practices in the scientific
     community, and should be found to be misconduct in science under NSF's regulation.

            NSF trusts scientists to accurately describe their results, their methods, the quality of
    their data, and their progress under their NSF awards so that their progress and proposals can
    be evaluated in comparison with the work of others in their field. NSF and its merit
    reviewers must be able to rely on the accuracy of a scientist's submissions. Neither NSF nor
    its reviewers have the resources to independently review. every notebook, publication and
    datum to ensure that they have been accurately described.

            The NSF GRESE instructs that proposals should provide "an adequate description of
    experimental methods and procedures." NSF92-82 at 4. PIS submitting renewal proposals
    are told to assume "that reviewers will not have access-to the previous.proposals." Id. at 14.
    Reviewers critique the presented work. based-on the assumption,that 'results are presented
    honestly. While scientists may present their-work favorably, they may not reasonably fail to
    check the supporting data or omit critical details so that readers would substantially
    misinterpret when and what was done or proposed.

           Of the four criteria used to assess a proposal, two are particularly relevant to this
    discussion: the scientist's research performance competence (review criterion 1) and the
    intrinsic merit of the research (criterion 2). Criterion 1 "relates to the capability of the

    such articles are expected to acknowledge the contributions of others and such acknowledgments are not
    constrained by the space limitations imposed on NSF proposals.
       -    investigator(s), [and] the technical soundness of the proposed approach . . . ." Id. at 10.
            Criterion 2 "is used to assess the likelihood that the research will lead to new discoveries or
            fundamental advances within its field of science . . . or have substantial impact on progress in
            that field . . . ." Id.

               The subject knowingly (and in one instance at least recklessly) precluded NSF and its
       reviewers from accurately assessing his proposal on the basis of these crucial criteria. His
       presentations caused, and were designed to cause, reasonable readers substantially to                                   ..
       misinterpret what he had done, what he was capable of doing, q d what he realistically could
       be expected to accomplish with NSF's funds. The fact that the subject's laboratory had failed,
 - -
- - - for more than 2 years, to make significant progress toward
                            s was crucial to NSF's ability to evaluate the likelihood of success of his
      proposed research. The 1993 revised renewal proposal-which resulted in a large award-
       similarly failed to provide available and requiredpinformationfortNSF to make an informed
      assessment and decision. Several reviewers of the 1993,proposal praised the subject's
      progress under his 1990 award. They did*notknow that,the -Experiments                  described
      as progress under the award were difficult-to-repeat, preliminary results obtained prior to the                          .    -
      receipt of the 1990 award, that the subject had merely plotted two sets of data gathered with
      the aid of the collaborator, and that, because of his student's difficulties,. he was again
      proposing to do work originally proposed in his 1990 award. When provided by OIG with
      the actual facts, the program officer said that if these facts had been known at the time, the
      program officer would have committed only 2 years of suppoi-t, and at a reduced level, if
      support had been recommended by the panel. Exh. 29 at 4.62

              There is a significant risk, moreover, that the misleading nature of the subject's
       presentation had another, but no less important, effect. NSF and panel merit reviewers draw
       on their knowledge of successfbl and unsuccessfbl research approaches when evaluating
       proposals and making fhding recommendations vis-a-vis other applicants. Because the
       subject failed to qualify his laboratory's progress with a fair and objective description of the
       problems his laboratory had encountered, NSF and its reviewers could only conclude that this
       was a viable experimental approach to an important +research,question-a conclusion they
       might misapply in other instances.

             We conclude that the subject seriously deviated from accepted practices in the
     scientific community in proposing, carrying out, and reporting results from activities h d e d
     by NSF when, in order to influence NSF funding decisions on his annual funding increments
     and renewal proposals, he violated NSF's requirements and knowingly miscast his
   . laboratory's ability to prepare                    e                             for
       62
            The program officer's evaluation was based on the more accurate factual presentation in the 1996 revision.
      OIG did not ask for, and the program officer did not, factor into that assessment any conclusion as to whether the
      subject's earlier, misleading, presentations constituted misconduct in science or rendered him presently irresponsible
      to conduct federally funded research.
                               experiments, page 18, et seq., above; knowingly miscast his laboratory's ability to
                    perform                      on those       , page 11, et seq.; misreported experimental results
                    with either the intention to mislead or the reckless failure to check the supporting data, page
                    22, et seq.; and knowingly substituted an inflated discussion of old data for a discussion of
                    his laboratory's actual progress and knowingly failed to disclose his laboratory's problems
                    (and, hence, its actual technical capabilities) under the award. Page 27, et seq. Each of these
                    actions constitutes misconduct in science under NSF's definition.



    --
-. .-                      Under 5 689.2(b) of NSF's misconduct in science and engineering regulation, in




                               -
,-   :     *   +    deciding*.what actions*are appropriate .when misconduct is found, NSF officials should
                    consider the seriousness of the misconduct, the intent with which the subject acted, any
                    evidence of a pattern, and finally, the relevance ofathe.misconduct.to other funding requests
                    or awards involving the institution or individual.

                            We have set forth at length in the previous section our analysis of the seriousness of
                   the subject's deviations from accepted practices. We believe that the subject's presentation of
                   the 1988                Experiment as having been conducted under the NSF award-a
                   presentation that spanned the 1991 progress report, the 1992 progress report, and both of the
                    1993 renewal proposals--can and should be viewed as a pattern and practice of misconduct.
                   That misconduct &as rendered more serious by the fact that the subject failed to provide his
                   collaborator on the 1988 -'Experiment           with appropriate credit either in publication or




                                                                                                            -
                   in NSF submissions after 1990. The fact that the subject also falsely presented his                 +
                   laboratory's ability to dissociate                         , its ability to
                                                                                            esoht '
                        , and the results of the d-      -experiments,       strengthens our view that the subject
                   engaged in a broad pattern of misrepresenting information to ensure his professional success.

                      The above conclusion is also supported by evidence drawn from the subject's
              presentation
                   --      in these same documents about his laboratory's               method for
                                            . As set forth in+AppendixA,. we~foundthathe subject omitted
              information about his ability to                  when .he 'described experiments that were
         * .
             designed to measure the           quantitative~iresponseto         e(exposure. His comments
             before the University committee of investigation showed that he knew he was in the process
             of working out the method for successfully            these      for extended periods of time,
             and that he did not know if they maintained differentiated hctions. In fact, with the loss of
             each undergraduate student, his laboratory had to redevelop the capability of conducting
             these experiments. Such information would be important to NSF and its reviewers'
             assessment of his abilities to accomplish Aim 1 of his 1993 proposal.

                          The evidence demonstrates that the subject lacks the judgment and present
                   responsibility necessary to administer his current NSF award. Over an extended period of
                   time, he repeatedly falsified information in proposals and progress reports in ways that
    rendered them fundamentally misleading with respect to. key criteria on which he knew
    federal funding decisions are based. These practices also raise concerns about his suitability
    as a research mentor. Information about the training he affords his graduate . and
    undergraduate students, see Part I1 above, and Appendix B below,63 demonstrate the
    seriousness of those concerns. -

        Nothing in his response to the graduate student's allegations or the University's or
 OIG's investigations demonstrates that the subject understands how the principles set forth in
 NSF's definition of misconduct in science apply to his actions. We find it troubling, in this
 regard, that even aper the graduate student expressed concerns to the University about the
 accuracy of the statements in the renewal proposals that are discussed in Parts I, I1 and 111 of
 this report, many of which the subject has now conceded were misleading, the subject
 continued to maintain that the problems were not that serious. Exh. 11 at 50-5 1.

        We believe the evidence shows that NSF cannot rely $on the truthfblness of the
 subject's submissions to protect the federal-governrnentkinterests. NSF should conclude that
-the subject committed serious deviations from accepted-practices -and thus misconduct in
 science and should take the following actions:

 1. Send the subject a letter of reprimand informing him that he was found to have
    committed misconduct in science.

 2. Require, for a period of 3 years from the final disposition of this case, or for the term of
    his next award, whichever is longer, that each of the subject's submissions to NSF
    (including annual progress reports, requests for supplemental fbnding, and proposals)
    include, as part of the submission, a certification by the subject that he has reviewed
    NSF's misconduct in science regulation, and that the submission is free of misconduct.

3. Ensure, for the same period, that each of the subject's pending or future submissions to
   NSF include, as part of the submission, a signed assurance from a University official who
   is qualified to understand the laboratory's supporting .research;data and documentation
   that the official has reviewed those records and that all-portions of the submission that
   rely on those records are accurate and complete.

4. Require, for the same period, that the subject send copies of the University official's
   assurances and the subject's certificationsto the Assistant Inspector General for Oversight
   in NSF's Office of Inspector General, for retention in that Office's confidential file on this
   matter.

"
      We note that our concerns in this regard stem from the subject's own descriptions of his mentoring practices,
and the University committee's assessment of the records maintained by the subject's graduate student under the
subject's tutelage, an assessment with which he essentially concurs. See Exh. 1 1 at 39. We did not (nor did we need
to) rely on any information which the subject has lacked a fair opportunity to rebut. Cf:Exh. 32 at 8.
                    5. Reduce, during the same period, the annual increment for any award to the subject to
                       $65,000 annually or to an amount commensurate with the program officer's evaluation of
                       the subject's actual research capabilities.

                    6. Limit, during the same period, the term of any award to the subject to a maximum of 2
                       years or for a duration commensurate with the program officer's evaluation of the
                       subject's actual research capabilities.

                     7. Consider, for the same period, requesting that assurances be submitted by the subject with
     -   -
                        his requests for b d s from NSF's REU program, such as assurances from a University
    .- -. /   ......
                       "official who?is qualified to anderstand experiment.and data recording practices that the
                        recording practices the subject imparts to his students and the subject's practice for
                        reviewing records in his laboratory comply with acceptable scientific norms.

                           We believe that if NSF takes the ,recommended lactions, NSF's interests will be
                   adequately protected; However, the subject currently has funding from the Public Health
                   Service and action~~short.of.debarment    will not ensure that the interests of other federal           .,
                   agencies are protected. We recommend that NSF consider requiring that certifications and
                   assurances similar to those described above be included with the subject's submissions to
                   other federal agencies and, if it -concludes that such steps are impracticable or will not
I                  sufficiently protect the federal government's interest, that it debar the subject for 3 years.

                       THE SUBJECT'S COMMENTS ON THE DRAFT TNVESTIGATION REPORT

                           In September 1997 we received the subject's comments on our draft investigation
                   report. Exh. 32. In the final report, we refute, or cite to, those comments where appropriate.
                   We also altered the report in the foIlowing respects to reflect concerns raised by the subject
                   with which, on consideration, we agreed:
I
                          In light of the subject's concerns about .the fairness of.the !University proceedings, see
               '   Exh. 32 at 8; we verified, and made plain; ,that,our conclusions do>not:dependon information        ,

I
                   presented to the University that has notabeen.not shared with the .subject. We note the
                   University's conclusions, however, because they afford important insight into the mores of
                   the subject's own academic community.

1                      In light-of the subject's stated concerns about our interview, Exh. 32 at 9, we noted
1
               that he had. been fully advised of our positions, that the interview was voluntary and that he
               was entitled to be accompanied by counsel, if he so desired. See page 7, above.

I
                     We modified our original recommendation 4 (now recommendation 7) (about
I
               mentoring) in response to the subject's concerns that our original, more stringent,
               recommendation might place excessive weight on the negative evidence. See Exh. 32 at 8, 9.
We believe our revised recommendation appropriately alerts the agency to concerns raised by
the uncontested evidence (including statements by the subject, see page 23, above).

        Finally, we modified our recommendation about the length of awards entered into
after any action based on this report to permit the subject to positively affect the result by
affirmatively demonstrating to the program officer his laboratory's actual research
capabilities.
                                                  Culturing      - -       Appendix A



                              In this section we will describe the subject's efforts to                                                                              I




                                                                                -
                                                                                                                                                                     1
                          s             vitro. There are two ways in which the subject's description of these efforts
                      are similar to his descriptions of the x p e r i m e n t and therefore relevant to this                                                        I


                -
                    - report. First, the subject-provided insufficient information about the state of his research for                             -           ..
                      NSF staff and reviewers to accurately assess his ability to extend that work. Second, the
                                                                                                                                                                     I
                      subject recycled prior descriptions of his work as current progress and failed,-at the same                                                   ,
    -       -                                                                                                                                                            I
-       -             time, to explain why he was not making progress on the project described in the proposal.                                                      I

                    -.We view the .subject's treatment of the              experiments as reflecting a pattern of                                                        I

                      misrepresenting his research efforts. However,-for the reasons .explained below, we do not
                                                                                                                                                                    .I
                      view the o r k as misconduct in science.                                                                                                           I



                     The Evidence
                                                                                                                                                                         i
                                                                                                                                                                         I
                                                                                                                                                                         1
                             The subject's 1990 proposal does not describe experiments on cultured             The
                                                                                                                                                                         1
                     subject's first discussion of these experiments appears in his 1991 progress report as an                                                           I
                     extension of the project described in Aim 2 (1990). This discussion states, "[wle are
                                                                                                                                                                         I
                     currently pursuing in vitro experiments on                     to quantitatively ascertain the
                     morphological and biochemical effects" of a              Exh. 2 at 2. It is apparent from the
                     1992 progress report, Exh. 4 at 2, that the subject's laboratory continued working on these
                     experiments in the next year. That report states that the laboratory had developed an                               w
                     culture system in which the       "remain       and          for up to three weeks"64.and that                                        . .-      .
                     it was "currently" determining these        responsiveness to             treatment. Id. The                                          .    -
                     "~esultsfrom Prior NSF Support1'*section in the subject's 1993 renewal proposals states
                     "[wle have been developing a culture system to analyze the effects of [                ] more
                     quantitatively, and these experiments are described in Specific Aim #l of this proposal."
                     Exhs. 5 and 8 at 10.

                              Aim 1 of the,renewal proposals is

                             To investigate the role of           ] in a more quantitative manner, we have
                             developed an in vitro culture system in which               can be maintained

                    .M
                          Two hallmarks ofisuccessful in vitro                are high           and        .".             is a measure of the        .       <.
                    number of                found in a sample where both the total number of                            ) and              have
                    been counted. It is the ratio of the counts of        to            expressed as a percentage.             is a general term
                    used to express the visual appearance of the         and their ability to maintain a particular differentiated fitnction or
                    set of differentiated functions in         . For                   like the subject's         , it is usually a measure of
                    the        ability to maintain a differentiated function like               activity or             responsiveness. Low
                              and loss of differentiated function are usually considered to be indicators of suboptimal culture conditions.
       +
                       for up to 3 weeks. Our immediate goal is to determine whether
                       alter               expression in vitro.




               differentiated functions (such as
               werevremoved from the
                                                            responsiveness or
                                                and placed in
                                                                                           -         can


                Id. at 13. The renewal proposals' description of the experimental design for this Aim again
                informs the reader that "we have recently succeeded in culturing                           for 3
                weeks, a duration adequate for the studies proposed here . . . ." Id. at 14 (emphasis added).
               Although the proposals provide no information about whether the -retained              important
                                                                                            activity) after they
                                                                          they do state that the laboratory has
               determined-that the presence of certain compounds is "essential for                           and
 - -
- -                      " Id. at 16. The subject told the University committee of investigation that the
               cultured,                was "10 percent," and that he did not know if the         had
               activity. Exh. 11 at 73. The program officer told us that if the subject's proposal had
               contained this information about the           rate .of the.     or his ignorance as to whether
           "   they retained differentiated function, it wouldAhave:.had"a~major.effect.on the critique of
               specific aim 1." Exh. 2 1 at 5.

                       The subject also told the University committee of investigation that when the grant
                was written the student who had conducted the -culturing           experiments was "getting to
                the point of having [the     ]      for several weeks, often times three weeks." Exh. 11 at 74.
               .The student then left the laboratory, without training his replacement. By October 1993, the
                subject estimated that the replacement student was "now" able to keep the               for "a
                couple weeks." Id. at 75. In a 25 April 1994 request to NSF for REU funds, the subject states
               that the funds would support the replacement student, who had been working on the
               culture project for 18 months, and who had "already succeeded in growing these                in
               cultureeandis just beginning a set of manipulations aimed at determining the mechanisms
               underlying this                    ." Exh. 15 (emphasis added).

                   The subject's November 1994 progress report describes the             physical appearance
           when they are exposed to              and demonstrates that the           are responsive, at some
           level, to the presence of          . Exh.:17 -at- 1-2. This .sort of-qualitative information about
           whether the cultured       retained a sensitivity-to'the            twas a-necessaryprecondition
           for the quantitative experiments described in Aim 1 (1993).

                    A subsequent, 17 February 1995, letter requesting additional REU support for yet
            another new student who had been working in the subject's laboratory "for the past nine
           *monthsttstates, "we have recently been able to individually culture these     [m in order to
            study [the                        ] phenomenon more quantitatively. Using these cultured
                , the student will determine if                 act directly on these    " The subject
           continued, "[hler success is such that she has been able to maintain these     in culture for
           up to 3 weeks and has generated some very nice data showing the            dependence of the
                    patterns of these    " Exh. 18 (emphasis added).
                           The subject claimed success culturing             and                for 3 weeks in the
                   August 1992 progress report for his 1990 award, but then claimed recent success in this same
                   endeavor in the January 1993 renewal proposal and again in the 1995 REU request. This and
                   his statements to the University committee of investigation make plain that the laboratory
                   has, through a succession of students, lost and regained the ability to culture           What is
                   disturbing about how the subject reported the laboratory's abilities is that it is similar to his
                   actions in repeatedly presenting th-Experiment                as recent results to disguise both
                   lack of progress and technical difficulties. The similarity in the subject's actions in these two
             "
                   situations is particularly apparent from a comparison of the remarkably similar descriptions
            c s
                   of the Aim 1 (1993)          culture work found in the November 1994 and December 1995
 -      -          progress reports. The December report describes what "previous experiments have
.- .-
                   determined" and continues:

                          To investigate the role of         insaTvnorequantitative7vnanner, we have
                          developed an in vitro culture systemin which individzi-      can be grown
                         for up to 2 1 days.

                          Our culture experiments have focussed initially on the morphological changes
                          exhibited by the         We have determined that different physiologicaZly-
                         relevant.concentrationsof u s e s major               -dependent changes in the
                         morphology of t h e e a r e d in vitro. Cultured o         w     n in low (
                         concentration produce primary            with little or no secondary or tertiary
                                    whereas higher -oncentrations            induce large           with a
                         promion of secondary and tertiary                     grown in 10-for           5
                         days followed by a 5 day exposure to high levels o f m o n t a i n a fill
                         complement of primary, secondary, and tertiary            . Thus in vitro eflects
                         ofaCiclose(y resemble the in vivo morphological remodelling of the
                         demonstrating that the culture system can be used to stu&
                         eflects. Current work is focussing on using -to            trigger the -0-
                                                    in vitro.

                  Exh. 22, at 2 (emphasis added). The' :italicized,.text ,is. a:+direct~vtranscriptionfrom the
                  November 1994 progress report. Exh. 17 at .1-2.', In addition,.and notably,.the subject has
                  not, from his own description of his research efforts, made much progress on Aim 1, and
                  rather than describe any difficulties he may have encountered in the quantitative experiments,
                  he has chosen to reiterate qualitative results.

                        In the September 1996 progress report the subject states

                        [W]e have been investigating the effects -o          these     in culture and
                        have demonstrated that different concentrations of        produce differential
                        effects on the type and extent of process            in these        We also
                        have demonstrated that              application reduces or abolishes
                                    in these       . Thus, the in vitro                     culture system appears to
                         mimic the in vivo situation.

                 Exh. 30 at 1-2.

                        In contrast, in his most recently submitted NSF proposal, the subject's description of
                 this work suggests that his laboratory has made progress in understanding the actual
                 quantitative influence of a         on-        Exh. 3 1 at 11.65

                 Our Conclusions
  -     -
.- .-
                        Although we think that Aim 1 (1993) would have attracted more criticism from
                 reviewers had the subject provided more details, we view this situation as less serious than
                 that described in Part IV of the report because:

                              The progress described all occurred.within the 1993 award. The subject
                              did not substitute a description of research performed with a collaborator
                          -   before the award that had not been supported by NSF for a description of
                     '
                              work he actually performed on this Aim. (He simply repeated the same
                              progress in several reports.)

                              In this instance, the subject's repeated characterization of the    culture




                                                                                                                            -
                              work as "recent" appears to be a c c u r a t ~ a c htime a new student was
                              hired to conduct the           culture experiments the student began by
                              developing the culturing skills necessary to keep these              for 3
                              weeks. It also appears that the subject was eventually able to gather data
                              related to the project described in the proposal.

                    We are nevertheless concerned because the description of the laboratory's abilities (to
            culture           suitable for these experiments) and knowledge (about the
            responsiveness to the           , and henceatheir suitability for the experiments) found in the
             1993 proposals did not provide reviewers :or NSFistaff sufficient information to accurately
            assess the riskiness of this particular project an& by their omissions, could reasonably be
            interpreted to indicate that the project was less risky than it was. With respect to the
            repetition found in the progress reports, if the subject had not been able to report success in
            other areas of research, pressures similar to those he experienced in attempting to conduct the
            research described as Aim 3 (1990) may have escalated his descriptions to serious
            misrepresentations like those described in Part IV of this report.



            65
                   For the purposes of this report, we do not take issue with the subject's amount or rate of progress on this Aim.



                                                                       47
                                                                  Appendix B

                                 The Subject as a Mentor for the Next Generation of Scientists

                         In research training, a mentor is defined as someone who is ultimately
                         responsible for the guidance and the academic, technical, and ethical
                         development of a student.

                 Francis L. Macrina, Scientzjic Integrity: An Introductory Text with Cases (1995) at 15.
      -     -
    .- .-               Mentors inform, instruct, and provide an example for their trainees. The
                        actions and activities of mentors affect the intellect and attitude of their
                        trainees. . . . [Tlrainees emerge from their programs with an intellectual and
                        ethical framework strongly shaped by their '.rnentors.:::~;Indeed,trainees often
                        assume the traits axid values of their mentors: (Thus; mentors vare:the:stewards
                        of scientific integrity.



                       Mentors to undergraduate students usually provide the students' first introduction to
                proper laboratory andAresearchconduct, including the proper recording of research results in
                a laboratory notebook.66 Such documentation, in turn, permits the mentor to evaluate a

                66
                     The importance of documentation is described in Writing the Laboratoty Notebook by Howard M. Kanare,

                        A laboratory notebook is one of a scientist's most valuable tools. It contains the permanent
                        written record of the researcher's mental and physical activities from experiment and observation,
                        to the ultimate understanding of physical phenomena. * The act of writing in the notebook causes
                        the scientist to stop and think about what is being done in the laboratory. It is in this way an
                        essential part of 'doing good science.'



I                      The infomation'written into a research notebook is:used for.several~purposes.~   bMostlimportantly,
                       the pages of the notebook are used to preserve the experimenta1,data-and:observationthat are part
                       of any scientific investigation. The notes must be clear, concise, and complete. The properly kept
                       notebook contains unambiguous statements of 'the truth' as observed by the scientist. . . .
I
I
                       The guiding principle for notekeeping is to write with enough detail and clarity that another
                       scientist could pick up the notebook at some time in the future, repeat the work based on the
                      *writtendescriptions, and make the same observations that were originally recorded. . . .

                       . . . The notebook provides a forum in which data and observations are analyzed, discu'ssed,
                       evaluated, and interpreted. . . . This process leads to the writing of reports, technical papers,
                       patent disclosures, and correspondence with colleagues.
                                     student's practical understanding of how a good experiment is designed, conducted, and
                                     documented. Critical review of student documentation allows the mentor to assess the
                                     quality of the student and the data, and to correct fundamental errors in the data or the
                                     student's approach to designing experiments. Left uncorrected, a student who has developed
                                     sloppy recording practices can see hard, well-meaning effort become unpublishable or worse,
                                     can unintentionally reach, rely on, and even publish, erroneous results.

                                        Noting that "[tlhe undergraduate years are critical in the educational sequence, as
                                 career-choice points and *asthe first real opportunities for in-depth study," e.g. NSF88-28
                                 at 1, NSF has explained that its REU awards are designed to "involve students in meaningful
                           --
                          --
                          ..
                                 ways in either ongoing research programs or research projects." Id.

        .,
                                         Since 1990, the subject has received over $30,000 from NSF's REU progra~n.~'
         \                       During our investigati'on+welearned -that 'the undergraduate studentsh :his laboratory
                 *-   -          received minimal guidance from+the.subjectabout .essential scientific!practices. The subject
                                 told the University 'committee of investigationdthat'he gave new students instruction on how
                                 to keep a logbook but that he did not give them feedback on how to keep good notes or check
             ,    -              their books, which he considered to be solely for their individual use. Exh. 11 at 40. As
    I
    I                            noted in the body of the report, the University committee of investigation concluded that the
    I                            subject's graduate student's

I
                                          notebook pages . . . were essentially unintelligible to anyone except [the
                                          graduate student]. There were few complete thoughts and only a few notes
                                          describing experiments. These notes required [the graduate student's]
                                          intervention to decipher. Thus, there was no way that the committee could
                                          independently establish that certain experiments had or had not been
                                          performed. The committee was rather surprised that such a notebook would
                                          have been considered acceptable by [the subject].

                                Exh. 19 at 2.
I
1
                                       We are concerned that the subject's understanding, and execution, of his          ..
:
                                responsibilities for training. students are inconsistent with NSF's , :and .the University's
                                                                                      ;

                                understanding of these responsibilities. Recommendation 7 is directed at addressing this
I                               concern.



                                67
                                      In his 1990 proposal, the subject included an "Education and Human Resources Statement." He there said,
                                "[tlhe research described in this proposal will contribute in several ways to the development of human resources in
                                science and to science education. . . . The experience of working in a research laboratory will be especially
                                beneficial for the several undergraduates involved in our research, exposing them to a scientific environment and
                                hopefully helping them to choose a career in science." Exh. 1 at 36.
